<html>
<title> - GREEN JOBS AND THEIR ROLE IN OUR ECONOMIC RECOVERY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       GREEN JOBS AND THEIR ROLE
                        IN OUR ECONOMIC RECOVERY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 31, 2009

                               __________

                           Serial No. 111-13

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
48-186                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
  Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Carol Shea-Porter, New Hampshire     Tom Price, Georgia,
Donald M. Payne, New Jersey            Ranking Minority Member
Raul M. Grijalva, Arizona            Peter Hoekstra, Michigan
Timothy H. Bishop, New York          Joe Wilson, South Carolina
Phil Hare, Illinois                  John Kline, Minnesota
Gregorio Kilili Camacho Sablan,
  Northern Mariana Islands


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 31, 2009...................................     1

Statement of Members:
    Price, Hon. Tom, ranking republican member, Subcommittee on 
      Workforce Protections......................................     3
        Prepared statement of....................................     4
        Additional submissions of:
            Letter, dated April 14, 2009, from the Associated 
              General Contractors of America.....................    60
            Letter, dated March 31, 2009, from Associated 
              Builders and Contractors, Inc......................    58
            ``7 Myths About Green Jobs,'' University of Illinois 
              College of Law, by William T. Bogart, et al, 
              Internet address to................................    66
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     2
        Additional submissions:
            Uhalde, Raymond J., senior advisor to the Secretary 
              of Labor, U.S. Department of Labor, prepared 
              statement of.......................................    54
            Response to ``Seven Myths about Green Jobs'' and 
              ``Green Jobs Myths,'' working paper series from 
              Robert Pollin, University of Massachusetts Amherst.    75

Statement of Witnesses:
    Bogart, William T., dean of academic affairs and professor of 
      economics, York College of Pennsylvania....................    14
        Prepared statement of....................................    16
    Krepcio, Kathy, executive director, John J. Heldrich Center 
      for Workforce Development, Edward J. Bloustein School of 
      Planning and Public Policy, Rutgers University.............    34
        Prepared statement of....................................    36
        Research brief: ``Preparing the Workforce for a `Green 
          Jobs' Economy,'' February 2009.........................    43
    Ringo, Jerome, president, the Apollo Alliance................    19
        Prepared statement of....................................    20
        Letter, dated March 24, 2009, from the Apollo Alliance...    22
    Roy, Robin, Ph.D., vice president, Serious Materials, Inc....     7
        Prepared statement of....................................     9
    Sherman, Jill, Gerding Edlen Development.....................    11
        Prepared statement of....................................    13
    Wolfe, Clinton R., Ph.D., executive director, Citizen's for 
      Nuclear Technology Awareness (CNTA)........................    23
        Prepared statement of....................................    24
        Additional submissions of:
            ``There's a Green Hangover Coming''..................    25
            ``A Sustainable Energy Future: The Essential Role of 
              Nuclear Energy,'' August 2008......................    27


                       GREEN JOBS AND THEIR ROLE
                        IN OUR ECONOMIC RECOVERY

                              ----------                              


                        Tuesday, March 31, 2009

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the Subcommittee] presiding.
    Present: Representatives Woolsey, Shea-Porter, Payne, Hare, 
Sablan, Price, Wilson, and Kline.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jordan Barab, Senior Labor Policy Advisor; 
Jody Calemine, Labor Policy Deputy Director; Lynn Dondis, Labor 
Counsel, Subcommittee on Workforce Protections; Jessica 
Kahanek, Press Assistant; Joe Novotny, Chief Clerk; James 
Schroll, Junior Legislative Associate, Labor; Mark Zuckerman, 
Staff Director; Robert Borden, General Counsel; Cameron 
Coursen, Assistant Communications Director; Kirsten Duncan, 
Professional Staff Member; Ed Gilroy, Director of Workforce 
Policy; Rob Gregg, Senior Legislative Assistant; Alexa Marrero, 
Communications Director; Molly McLaughlin Salmi, Deputy 
Director of Workforce Policy; and Linda Stevens, Chief Clerk/
Assistant to the General Counsel.
    Chairwoman Woolsey [presiding]. A quorum is present. The 
hearing of the Subcommittee on the Workforce Protections will 
come to order. I will yield myself as much time as I may 
consume for an opening statement.
    And I want to thank all of you--all of us, up here, also--
for being here to attend this hearing on green jobs and the 
role they play in our economic recovery. Green industry, green 
technology will play a key role in our economic recovery, and 
that is no surprise to any of us. So today, the economy, which 
is in very bad shape, and millions of people are out of work--
it is because of that we are going to have the discussion of 
what are green jobs and will they make a difference as our 
economy rebuilds itself?
    In February, unemployment stood at over 8 percent, with 
workers in the construction sector taking the very hardest hit. 
But our president has taken bold action with the passage of the 
American Recovery and Reinvestment Act, an act that provides 
new resources and new momentum to create and maintain millions 
of new jobs.
    Green jobs are a top priority of the Recovery Act, and at 
least $500 million has been set aside for green job training. 
The exciting news is that greening our economy will require 
workers in existing and traditional jobs as well as in new 
industries and new job sites.
    We now have substantial evidence, some of which you are 
going to hear about today in testimony, that green industries 
are revitalizing existing jobs that would have otherwise gone 
by the wayside. I am confident that if we stay on course and 
encourage American ingenuity and innovation we can emerge from 
this national recession stronger than we were before.
    For this hearing today, we intend to roll up our sleeves; 
we intend to address some of the very practical questions that 
are in front of us. What is the broadest definition we can come 
up with for green jobs--a definition that truly captures the 
full potential of an emerging economy? What factors drive 
growth in the green jobs?
    What are the skills that workers need, and how do we build 
on existing skills? And finally, what can we do to educate our 
future workforce for these jobs of the future?
    I know that detractors of the green revolution argue that 
the lack of a standard definition for green jobs is a reason 
not to commit money to it. Well, that is exactly why we are 
here.
    This is the Labor Committee. This is the Workforce 
Protection Committee. Our responsibility is putting job titles 
together under the Department of Labor, and we will be doing 
that and building on what our information is that we find out 
from you today.
    We need a long-term viewpoint; we don't need a shortsighted 
viewpoint. And we may not have an exact consensus on a 
definition today, but most of us can agree on some very, very 
certain principles.
    We know that green jobs are real. We know that green jobs 
enhance environmental quality while creating good jobs right 
here at home. And we know that a green economy will transform 
this country and the world.
    So I look forward to hearing from all of you, and I defer 
now to our ranking member, Mr. Price, for his opening 
statement.
    [The statement of Ms. Woolsey follows:]

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    I want to thank everyone for attending this hearing on ``Green Jobs 
and Their Role in our Economic Recovery.''
    Green industry, green technology and green jobs are our future, and 
will play a key role in our economic recovery.
    Today the economy is bad and millions of people are out of work.
    In February, unemployment stood at over 8%, with workers in the 
construction sector taking the hardest hit.
    But our President has taken bold action with the passage of the 
American Recovery and Reinvestment Act that provides new resources and 
new momentum to create and maintain millions of jobs.
    Green jobs are a top priority of the Recovery Act and at least $500 
million has been set aside for green job training.
    The exciting news is that greening our economy will require workers 
in existing and traditional jobs as well.
    We now have substantial evidence--some of which you will hear in 
testimony today--that green industries are revitalizing existing jobs 
that would have otherwise gone by the wayside.
    I am confident that if we stay on course and encourage American 
ingenuity and innovation, we can emerge from this national recession 
stronger than we were before.
    For this hearing today we intend to roll up our sleeves and address 
some very practical questions. What is the broadest definition we can 
come up with for green jobs: a definition that truly captures the full 
potential of an emerging economy?
    What factors drive growth in green jobs?
    What are the skills that workers will need, and how do we build on 
existing skills?
    And finally, what can we do to educate our future workforce for 
these jobs?
    I know that detractors of the green revolution argue that the lack 
of a standard definition for green jobs is a reason not to commit money 
to it. But that is a shortsighted viewpoint. We may not have a precise 
consensus on a definition, but most of us can agree on certain 
principals. We know that green jobs are real. We know that green jobs 
enhance environmental quality, while creating good jobs right here at 
home. And we know that a green economy will transform this country and 
the world. I look forward to hearing from our witnesses and defer to 
ranking member price for his opening statement.
                                 ______
                                 
    Dr. Price. Thank you, Madam Chair. I want to thank you for 
holding this hearing.
    I want to thank our distinguished panel for taking time and 
joining us today and sharing your expertise.
    Today's hearing provides members of this subcommittee with 
the opportunity to learn more about the emerging workforce 
sector encompassed by the term ``green jobs.'' As we have 
already seen, Congress has played an active role in shaping the 
direction of this workforce.
    In December 2007, the Green Jobs Act was signed into law as 
part of the Democrats' energy package, creating a new program 
to provide training for workers in the energy efficiency and 
renewable energy fields. The cost was $125 million.
    And recently the Democrats' spending package included $750 
million for competitive grants to attract workers in high-
growth and emerging industries. Nearly two-thirds of that has 
been set aside for green, energy efficient, or renewable energy 
industries.
    It is clear that green jobs, whether through government 
mandates and spending or through legitimate market forces, are 
emerging as a significant part of the workforce sector. 
However, before devoting additional federal dollars, if any, to 
the emerging green jobs sector, to the emerging green jobs 
sector, we must be able to identify what exactly entails a 
green job and gauge the impact on the economy.
    There must also be a broader discussion about which energy 
fields and technologies should be captured under the umbrella 
of green jobs. It would be shortsighted not to include a 
multitude of jobs in a broad range of industries, including 
energy technologies such as nuclear power and clean coal.
    Looking at what Congress has already done, the Green Jobs 
Act defined green jobs as energy efficiency and renewable 
energy industries that include the energy efficient building, 
construction, and retrofit industries, the renewable electric 
power industry, and the energy efficient and advanced 
drivetrain vehicle industry. Also included in that definition 
were the biofuels industry, the deconstruction and materials 
use industries, and manufacturers that produce sustainable 
products using environmentally sustainable processes and 
materials.
    However, some take a much broader definition of green jobs. 
To them, it may mean more than meeting workforce needs in a 
green-approved environmental field. They may also add the 
requirement of meeting ideologically-driven social goals.
    A green job, to some, may be one that is part of a 
unionized workforce, that guarantees tenure, or that imposes 
set costs on employers through mandated wages and benefits. 
Most Americans would not attach these added definitions to what 
they believe is a green job.
    In the years to come, our nation will need a new generation 
of highly educated and skilled employees, and industries must 
be innovative and responsive to domestic and global 
competition. Efforts to increase energy conservation and foster 
job creation in the areas of green jobs are commendable and may 
better position the United States for the long term. But if the 
value of social goals is placed at a higher premium than 
economic prosperity and ingenuity, it is possible that none of 
this may be realized.
    Republicans are committed to an emerging dynamic workforce 
focused on renewable energy and green jobs. Holding this 
hearing today brings us one step closer toward a careful 
vetting of the definition of a green job, which is important 
given that this category of jobs may be significantly impacted 
and shaped by future federal policies.
    We all look forward to hearing from the witnesses today, 
and hope that you will provide us with a full and complete 
portrait of the green job sector. I look forward, as well, to 
working with my colleagues and the chairwoman on the this 
committee to explore this topic further.
    I thank the chair.
    [The statement of Mr. Price follows:]

   Prepared Statement of Hon. Tom Price, Ranking Republican Member, 
                 Subcommittee on Workforce Protections

    Good morning and thank you, Chairwoman Woolsey. I would like to 
begin by thanking our distinguished panel of witnesses for appearing 
today. We appreciate that they have taken time out of their busy 
schedules to share their expertise and experiences with us.
    Today's hearing provides Members of this Subcommittee with the 
opportunity to learn more about the emerging workforce sector 
encompassed by the term ``green jobs.'' As we have already seen, 
Congress has played an active role in shaping the direction of this 
workforce.
    In December 2007, the ``Green Jobs Act'' was signed into law as 
part of the Democrats' energy package, creating a new program to 
provide training for workers in the energy efficiency and renewable 
energy fields. It came at a cost of $125 million.
    More recently, the Democrats' spending package included $750 
million for competitive grants to attract workers in high growth and 
emerging industries. Nearly two-thirds of that has been set aside for 
green, ``energy efficient or renewable energy industries.''
    It is clear that ``green jobs''--whether through government 
mandates and spending or legitimate market forces--are emerging as a 
significant part of the workforce sector. However, before devoting 
additional federal dollars, if any, to the emerging green jobs sector, 
we must be able to identify what exactly entails a green job and gauge 
the impact on the economy.
    There must also be a broader discussion about which energy fields 
and technologies should be captured under the umbrella of green jobs. 
It would be short-sighted not to include a multitude of jobs in a broad 
range of industries, including energy technologies such as nuclear 
power and clean coal.
    Looking at what Congress has already done, the Green Jobs Act 
defined ``green jobs'' as energy efficiency and renewable energy 
industries that include the energy-efficient building, construction, 
and retrofit industries; the renewable electric power industry; and the 
energy efficient and advanced drive train vehicle industry.
    Also included in that definition were the biofuels industry; the 
deconstruction and materials use industries; and manufacturers that 
produce sustainable products using environmentally sustainable 
processes and materials.
    However, some take a much broader definition for ``green jobs''. To 
them it may mean more than meeting workforce needs in a green-approved 
environmental field but the requirement of meeting ideologically-driven 
social goals. A green job to them may be one that is part of a 
unionized workforce, that guarantees tenure, or that imposes set costs 
on employers through mandated wages and benefits. Most Americans would 
not attach these added definitions to what they believe is a green job.
    In the years to come, our nation will need a new generation of 
educated and highly-skilled employees. And industries must be 
innovative and responsive to domestic and global competition. Efforts 
to increase energy conservation and foster job creation in the areas of 
green jobs are commendable and may better position the United States 
for the long-term. But if the value of social goals is placed at a 
higher premium than economic prosperity and ingenuity, none of this may 
be realized.
    Republicans are committed to an emerging, dynamic workforce focused 
on renewable energy and green jobs. Holding this hearing today brings 
us one step closer toward a careful vetting of the definition of a 
green job, which is important given that this category of jobs may be 
significantly impacted and shaped by future federal policy.
    I look forward to hearing from our witnesses who may provide us 
with a full and complete portrait of the green job sector. And I look 
forward to working with my colleagues on the Committee to explore this 
topic further.
    Thank you, Madame Chairwoman.
                                 ______
                                 
    Chairwoman Woolsey. Thank you, Mr. Price.
    Without objection, all members will have 14 days to submit 
additional materials to the hearing record. Now I would like to 
introduce our very distinguished panel of witnesses who are 
here this morning, and after that I want to--I will tell you 
before then about the lighting system.
    You have 5 minutes. When you start to speak the light will 
turn green in front of you, and then when it turns yellow you 
know you have 1 minute, and then when it is red, we hope that 
you are ready to just totally sum up. And then if you have more 
that you should say, help us when we ask questions. We only get 
5 minutes too, between our question and your answer--so help us 
help you continue with your information to us, if you haven't 
gotten it all out. We would be glad to do that.
    So first I would like to start by introduction Dr. Robin 
Roy, and we are going to continue in the order that I am 
introducing you. Dr. Robin Roy is the Vice President of 
Projects and Policy at Serious Materials, a company that makes 
environmentally sustainable building materials.
    Now, you may have seen Dr. Roy on television, and you may 
have followed what has been going on, and he will tell us a 
little bit about it. But a Chicago glass manufacturer was going 
to go out of business and Dr. Roy, seeing how, I believe, how 
dedicated the employees were at that company, took a look at 
could that company be useful and beneficial to his company, and 
they purchased it so that it could continue. Before I even met 
you, Dr. Roy, I was very impressed that you did that.
    Before joining Serious, he cofounded Next Energy, which 
advises government industry and environmental organizations on 
energy policy and strategy. Dr. Roy was a project director and 
fellow at the United States Congress Office of Technology 
Assessment, where he advised Congress on energy efficiency 
initiatives in the federal government and housing sectors. Dr. 
Roy received his Ph.D. in civil engineering from Stanford 
University.
    Jill Sherman is the Senior Development Manager at Gerding 
Edlen Development, and environmentally-conscious real estate 
development company in Portland, Oregon. Before joining that 
firm, Ms. Sherman developed affordable housing in the nonprofit 
sector.
    She holds a B.S. in economics from the University of 
Pennsylvania and a master's in urban studies from Portland 
State University
    Thank you for being here, Ms. Sherman.
    Dr. William Bogart is the Dean of Academic Affairs and 
Professor of Economics at York College in Pennsylvania. Before 
joining the faculty at York College, he was Chair of the 
Economics Department at Case Western Reserve University.
    Dr. Bogart is a prolific writer and teacher of economics 
and finance. He received a Ph.D. from Princeton University.
    Welcome, Dr. Bogart.
    Jerome Ringo is the President of the Apollo Alliance. He 
was recently chairman of the National Wildlife Federation, 
which he represented at the United Nations conference on 
sustainable development in 1999.
    Mr. Ringo was also a delegate to the 1998 global warming 
treaty negotiations in Kyoto, Japan. He has served as an 
associate research scholar at Yale University and is currently 
an official adviser to the Sundance Channel's, ``The Green.'' 
Mr. Ringo attended Louisiana Technical University and McNeese 
State University.
    Now Congressman Wilson is going to introduce Dr. Wolfe.
    Mr. Wilson. Thank you, Chairwoman Woolsey and Ranking 
Member Price. I appreciate the opportunity to introduce our 
next witness.
    Dr. Clint Wolfe's long scientific and management career 
includes service as a researcher with Westinghouse Electric 
Corporation, as lead investigator on nuclear steam generator 
corrosion issues for Westinghouse, and as manager of the 
strategic materials technology department at the Savannah River 
Nuclear Laboratory in my home state of South Carolina, where 
over 50 percent of electrical generation has been by nuclear, 
safely, for over 30 years.
    Dr. Wolfe has served as the chairman of the technical 
advisory panel to the Department of Energy's plutonium-focused 
area. He was instrumental in the establishment of the South 
Carolina University's research and education foundation.
    Dr. Wolfe is also the recipient of the distinguished 
service award from South Carolina State University, an HBCU, in 
Orangeburg, South Carolina. The award was in recognition of 17 
years of service on the school's education foundation board of 
directors, including 3 years as chairman of the board.
    Dr. Wolfe retired from SRNL in 2005 and became the 
executive director of Citizens for Nuclear Technology Awareness 
in Aiken, South Carolina, in January of 2008.
    Dr. Wolfe, welcome.
    Chairwoman Woolsey. Thank you, Congressman.
    Kathy Krepcio is the Executive Director of John J. Heldrich 
Center for Workforce Development at Rutgers University. She 
also serves as the Project Director of the National Technical 
Assistance and Research Leadership Center to promote employment 
and economic independence for adults with disabilities.
    Ms. Krepcio has served as chief of staff in the New Jersey 
State Office of Information Technology and director for policy 
and planning at the New Jersey Department of Human Services. 
She earned a B.A. from Syracuse University and an M.A. from 
Rutgers.
    Welcome, all of you. We are very anxious to hear your 
testimony.
    And we will begin with you, Dr. Roy.

STATEMENT OF ROBIN ROY, VICE PRESIDENT FOR PROJECTS AND POLICY, 
                       SERIOUS MATERIALS

    Mr. Roy. Chairwoman Woolsey, Ranking Member Price, members 
of the Committee, thank you for the opportunity to appear here 
today and share Serious Materials' experience in creating green 
jobs. Five months ago, the community around Vandergrift, 
Pennsylvania, woke up to devastating news: The Kensington 
Windows Plant has shut its doors, throwing about 150 folks out 
of work.
    Some people had worked there for over 30 years. The average 
tenure was about 20 years. In a small community, it was an 
absolutely devastating blow.
    Serious Materials had already been exploring east coast 
manufacturers, so we took a look. We looked at the plant, 
looked at the people; we really liked what we saw. They made 
high quality products, they had good facilities, good 
equipment, the workers were highly skilled. It was clear that 
we could introduce our technology, retool and revise production 
to make our highly economic, highly efficient products.
    Two weeks ago, yesterday, we formally reopened, and now 
have hired back about 30 of those 150 workers. We were 
fortunate to have Governor Rendell out on the day 2 weeks ago, 
and what he said really speaks, I think, very vis-a-vis of this 
hearing today, so I am going to quote from him:
    ``This is a great example of the opportunities we have to 
create a green economy where workers manufacture products that 
reduce our energy dependence, encourage conservation, save 
consumers money, and strengthen our national security. We have 
a skilled workforce, idle factory space, and an infrastructure 
that can be used quickly to build, install and service products 
like these. And now we have new resources to invest in these 
industries and our people to make these projects a reality and 
rebuild our economy so that we can emerge from this national 
recession stronger than before.''
    I think all of those bits of what Governor Rendell said 
were really quite on target. By the way, we are, as you 
mentioned, Chairwoman Woolsey, we are also getting skilled 
workers back to work in Chicago, where another plant shut its 
doors in December, throwing about 300 people out of work. We 
have now acquired the assets of that plant, again through the 
bankruptcy process.
    We have completed a great agreement with the union. We have 
just last week hired back the first several workers, and we 
plan to reopen in the next several weeks. We will keep you up 
to date on how all that progresses.
    So what is it that we are doing? Serious Materials develops 
advanced green building products that save energy, save money, 
improve occupant comfort, and address climate change. That 
creates jobs in the process. I think it is fair to say that 
every Serious Materials job is a green job for that reason.
    But beyond just the jobs that are created, our products 
contribute to economic health, saving more than it costs to 
produce and install them. I think that is very important. For 
example, replacing windows has generally not been regarded as 
cost effective--for example, in low-income weatherization--but 
our highly-insulating, low-cost windows technology actually 
changes that. Windows replacements are now cost effective for 
widespread installation in low-income weatherization, and in 
public and assisted housing, and in federal, state, and 
municipal buildings in many cities and many housing and 
building types.
    These are all areas which are supported by the Recovery 
Act, you may notice, as well as private investment in various 
energy efficiency retrofits ordered by the tax credit----
    It is certainly the case that the Recovery Act and the 
deliberations leading to it gave us great confidence in our 
efforts to acquire and restart both the Pennsylvania and 
Chicago plants.
    More importantly though, looking forward, effective 
implementation of the Recovery Act and energy efficiency 
provisions is going to allow us to bring the staffing levels 
back up to where they were when those plants shut their doors 
and beyond, and bring production up there and beyond. It is 
enormously important that we get that effective implementation 
of the Recovery Act.
    We are going to be able to hire up much more rapidly than 
we otherwise would have. We had always intended to expand to 
the East Coast and the Midwest, but now we will be able to do 
that very quickly--much, much more quickly than we would have 
otherwise.
    There is an enormous amount of work to be done to deliver 
on the opportunities that are presented by the Recovery Act, 
both to create near-term jobs and also to deliver on the 
longer-term economic health, energy security, and environmental 
imperatives that we are facing. A lot of the work is 
administrative implementation of the Recovery Act; there is a 
lot that needs to be done. We are confident that it can all get 
done, but it needs to be moved on quite promptly and 
effectively.
    A lot of the work just happens to be regular business 
activity as we hire up and retool and get our equipment going, 
get our suppliers and supply chains and our downstream going. 
There are also some legislative issues which seem like they 
are--they come up and have to be addressed over time. But we 
are confident that it all can go well, and we expect it to all 
go well. We are planning to have staffing at about 1,000 by the 
end of this year making high quality gear.
    Now, I know there is interest in this Committee on job 
training issues. For us, as manufacturers of a product, job 
training is not the key focus in our facility. We are rehiring, 
mainly, of folks who have been put out of work that are already 
highly skilled. So it is not the critical issue for us.
    That said, we know that downstream job training is vital in 
installation of our products, both our windows and our super-
efficient drywall, things of that nature. Certainly in low-
income weatherization we need a lot of auto skills----
    And I can stop with that.
    [The statement of Mr. Roy follows:]

        Prepared Statement of Robin Roy, Ph.D., Vice President,
                        Serious Materials, Inc.

    Chairwoman Woolsey, Ranking Member Price, and members of the 
Committee, thank you for the opportunity to appear here today and share 
Serious Materials' experience.
Serious Materials manufactures green products
    Founded in 2002, Serious Materials, Inc. develops and manufactures 
advanced green building materials that save energy, save money, improve 
occupant comfort, and address climate change. As a result, it would be 
fair to say that every Serious Materials job is a green job.
    Our products include:
    <bullet> Serious Windows: high-performance insulated windows that 
are up to four times more energy efficient than required for Energy 
Star listing. In fact, SeriousWindows already exceed the proposed 
Energy Star standards for the year 2013. With our acquisition of Alpen 
Windows in 2008, we now have more than 27 years of high-performance 
windows manufacturing experience, and have supplied windows and glass 
to 10,000 projects nationwide.
    <bullet> ThermaRock: a unique aerogel-drywall product that provides 
high levels of insulation for space-constrained locations. For example, 
adding a \5/8\ inch ThermaRock panel to an uninsulated brick wall can 
increase the thermal performance from about R-1 to about R-5.
    <bullet> QuietRock & QuietHome Windows: soundproofing products 
which can reduce material use, enhance livability, and support denser, 
more sustainable urban development.
    <bullet> EcoRock: an environmentally superior alternative to 
standard gypsum drywall, which uses 80% less energy to manufacture, and 
contains 80% postindustrial recycled material, including waste from 
steel and cement plants.
    In addition to delivering unprecedentedly high performance, Serious 
Materials also uses advanced technology to drive down costs to 
unprecedented levels. The combination of high performance and lower 
costs makes our breakthrough products cost-effective in many 
applications where previously, savings didn't justify the costs.
    For example, replacing windows has generally not been regarded as 
cost-effective for use in the low income weatherization assistance 
program. However, our highly insulating, low cost windows change that, 
and are cost-effective for wide-spread installation in low income 
weatherization in many cities and housing types. This is a major step 
forward delivered by the use of advanced technology. Similarly, 
insulating the walls of many older masonry buildings was often 
infeasible due to the indirect cost of consuming precious interior 
space. ThermaRock, with a thickness of \5/8\ inch, provides an 
unprecedented insulation option which can be cost-effective in many 
applications. Notably, these advanced technologies do not require novel 
installation practices or labor skills.
Serious Materials manufacturing facilities
    Serious Materials currently manufactures in four locations across 
the United States:
    <bullet> Sunnyvale, California;
    <bullet> Newark, California;
    <bullet> Boulder, Colorado; and
    <bullet> Vandergrift, Pennsylvania.
    We will open our fifth plant, in Chicago, Illinois in the next 
several weeks.
    The Vandergrift and Chicago plants provide excellent examples of 
putting skilled manufacturing workers back on the job.
Back on the job, manufacturing in Vandergrift, PA
    The former Kensington Windows plant in Vandergrift, PA shut its 
doors in October 2008, putting over 150 people out of work after its 
parent company filed for bankruptcy. We looked at the plant and its 
people, and liked what we saw. Kensington Windows had manufactured high 
quality windows using the latest technology and high quality 
components. The average tenure of the work force was 18 years, with 9 
percent having more than 30 years with the company. It was clear that 
we could revise the production to focus on highly insulating windows, 
and quickly introduce our cost and performance enhancing technology. 
The location was also excellent, allowing us to conveniently deliver 
products and service to the east, mid-Atlantic and central regions.
    Serious Materials acquired the assets at the end of January 2009, 
through the bankruptcy process. We've rehired 30 of the former workers, 
and target getting back to a workforce of 150 by year's end.
    On March 16, Governor Rendell keynoted the official ribbon cutting 
ceremony at the plant. As noted by the Governor:

          ``This is a great example of the opportunities we have to 
        create a green economy where workers manufacture products that 
        reduce our energy dependence, encourage conservation, save 
        consumers money, and strengthen our national security. Similar 
        opportunities exist across Pennsylvania. We have a skilled 
        workforce, idle factory space and an infrastructure that can be 
        used quickly to build, install and service products like these 
        windows or energy efficient appliances. * * * And, now, with 
        the support of President Obama's American Recovery and 
        Reinvestment Act, as well as our own state programs, we have 
        new resources to invest in these industries and our people to 
        make these projects a reality and rebuild our economy so that 
        we can emerge from this national recession stronger than 
        before.''

    There is a real, personal side to this, as best described by Robin 
Scott, one of first rehired workers and life-long area resident:
    ``When I was told Serious Materials was going to buy the place 
[Kensington] I was on cloud nine. I want my kids to recognize the 
bright future they can have in our country and what better example is 
there than giving our workforce a fighting chance during rough times. 
You can practically taste the excitement in the air--not only from 
Kensington employees but also from everyone in Vandergrift--it just 
feels like a huge relief for everyone.''
Getting back on the job, manufacturing in Chicago, IL
    Republic Windows garnered national attention in December 2008 when 
it suddenly closed its doors, declared bankruptcy, and left 300 people 
unemployed just before the holidays. As in Vandergrift, we looked at 
the plant and its people, and liked what we saw. We worked closely and 
productively with the union, United Electrical Workers, through the 
bankruptcy process. At the end of February 2009, Serious Materials 
acquired the assets of the former Republic Windows and Doors in 
Chicago, Illinois through the bankruptcy process.
    I'm delighted to note that Serious Materials has completed an 
agreement with the union, and the Chicago plant will have union 
representation. We've just hired back the first few employees, and are 
planning to reopen in the next several weeks.
    Vice President Biden commented on Serious Materials plans for the 
Chicago factory:

          ``The reopening of this factory and the rehiring of these 
        workers provide an excellent example of how the money in the 
        Recovery Act is targeted to spur job creation quickly,'' said 
        Vice President Biden. ``These workers will not only earn a 
        paycheck again; they will go back to work creating products 
        that will benefit America's long-term economic future.''

    We'll keep the committee informed on our progress in reopening.
Effective implementation of ARRA is essential
    It will take some time, but Serious Materials intends to return to 
and exceed the former production and employment levels of the Chicago 
and Vandergrift plants. We are also expanding production and jobs at 
our other facilities in California and Colorado. These are all green 
jobs.
    Effective implementation of American Recovery and Reinvestment Act 
energy efficiency measures is essential to our plans. It will allow us 
to expand operations and hire up far more rapidly than would be 
possible without it. This will bring more jobs not just at the factory, 
but also in installation, and for our upstream suppliers.
    ARRA supports implementation of cost-effective energy efficiency 
measures in several areas:
    <bullet> In private homes, with Sec 25C tax credits
    <bullet> In low income weatherization
    <bullet> In refurbishment of public and assisted housing
    <bullet> In refurbishment of schools
    <bullet> In improving other local, state and federal buildings
    There is a great deal of work to be done to deliver on the 
opportunities presented by ARRA to both create near-term jobs and 
deliver on longer term economic health, energy security, and 
environmental imperatives.
    We are working with our suppliers, customers, and other interested 
parties across a wide range of implementation issues.
    There are also a number of important administrative issues to be 
addressed promptly and effectively. For example, the software models 
used to assess the cost and performance of measures in the 
Weatherization Assistance Program (e.g., the National Energy Audit 
Tool) urgently require updating and correction through the Department 
of Energy. Also regarding WAP, some administrative guidance will be 
needed from the Department of Labor. With respect to Energy Star, the 
Department of Energy has recently proposed strengthening the criteria 
for windows in a two-phase process. Phase I was urgently needed to 
catch up to code requirements already existing in many states, and to 
the market. Phase II is also urgently needed to restore Energy Star's 
leadership position. These are but three examples of many needed 
activities, none of which are unworkable, but all of which must be 
addressed.
    On the legislative front, I note that a bill has been introduced to 
roll back the stringent energy saving requirements that ARRA 
established as a condition of receiving residential tax credits. In our 
view, rolling back those stringent criteria would be a significant 
misstep. The Recovery Act's higher performance standards require 
manufacturers to lift their game in order to benefit from taxpayer 
funds, but can be readily achieved using existing technology. Our 
products, and those of several of our competitors already meet the 
Recovery Act requirements for high performance. Shifting production to 
higher performance items will deliver near term benefits for jobs and 
the economy, and as importantly, deliver longer term benefits for 
energy security, the environment, and consumers. The higher standards 
also encourage American innovation, by clearly rewarding better-
performing products. This hinges on continued support for raising the 
bar on energy saving windows. Unraveling the higher standards that were 
established in the Recovery Act would result in taxpayer dollars being 
wasted on unnecessarily inefficient products, and discourage 
innovation.
The importance of job training
    Serious Materials manufacturers green building products for 
installation and use by others downstream. For the foreseeable future, 
we anticipate rehiring skilled workers, and job training is not a 
critical issue.
    However, we recognize the urgent need for specialist installers 
downstream of our manufacturing work. Installation should provide good 
jobs both for skilled installers and for entry level helpers, who can 
then be on a track to become a skilled installer. Because window 
installation is a specialized activity and must be done in an 
effective, logistically efficient manner, we maintain on our team a 
certified trainer who regularly conducts courses suitable for all skill 
levels. We offer this training service to our customers and others, and 
anticipate that some may build such services into their training 
programs, both for entry level and higher skilled workers.
    Thank you again for the opportunity to appear here today, and I 
look forward to your questions now and at any time.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much.
    Ms. Sherman?

      STATEMENT OF JILL SHERMAN, GERDING EDLEN DEVELOPMENT

    Ms. Sherman. Chairwoman Woolsey and members of the 
Committee, thank you very much for the opportunity----
    Chairwoman Woolsey. Can you put your microphone a little 
closer to you?
    Ms. Sherman. Sure. How is that?
    Thank you for the opportunity to speak with you today about 
what we believe is a huge economic development opportunity. 
Although conditions are nothing short of brutal in today's real 
estate industry--and you typically don't hear real estate and 
opportunity being talked about in the same sentence--at Gerding 
Edlen, we do see, along with the significant challenges, 
enormous opportunity.
    Gerding Edlen Development has been working in the green 
building development business for over 15 years. We are an 
Oregon-based company with offices in Seattle and Los Angeles. 
For over a decade, our company has led the nation in developing 
highly sustainable, transit-oriented, mixed use urban high rise 
projects. We have more U.S. Green Building Council LEED 
certified buildings than any other firm, with 39 either 
certified or in the process of certification, including seven 
platinum and 24 gold rated buildings.
    Along the way, with the help of our talented partners, we 
have pioneered numerous energy, water, and sewage innovations. 
For example, we recently completed a high rise office building 
where not only are we using 63 percent less energy than a 
typical building designed to meet code, but we also took the 
entire building off the municipal sewer system. So we are not 
connected--that building is not connected to the sewer because 
we process 100 percent of the storm, grey, and black water and 
actually recover more water than we can use in that building.
    Today, the buildings that we develop consume 50 percent 
less energy than a code-compliant building and between 30 and 
50 percent less water. We estimate that throughout our 
portfolio, we have reduced carbon emissions by over 7,500 
metric tons annually and reduced energy consumption by 61 
megawatts a year. Our current objective, though, is to develop 
buildings that actually produce more energy than they use and 
produce no waste--what we call net zero buildings.
    In the aggregate, our projects to date represent almost $5 
billion worth of economic activity and literally tens of 
thousands of family wage jobs with skill sets ranging from 
finance, to engineering, to design, to highly-skilled union 
craftspeople in the field, to Americans working in factories 
producing doors, windows, conduit, steel, and the like.
    However, new construction is only the tip of the iceberg. 
There are millions of commercial, education, medical, and other 
very large buildings across the country that are energy and 
water hogs--buildings that are needlessly wasting energy and 
desperately need retrofitting. And this is where we believe the 
current opportunity lies.
    Rather than putting a new roof on a building, why not add 
solar panels and cogeneration facilities to generate energy? 
Why not install day lighting sensors, occupancy sensors, and 
new lighting systems to reduce lighting loads and therefore use 
less electricity?
    Instead of replacing a broken sink or toilet, we can 
replace all of the plumbing fixtures and reduce water demand by 
30 to 50 percent while also reducing the sewage outflow. 
Instead of fixing a broken window, why not replace all the 
outdated windows with--Mr. Roy's--energy efficient glazing 
manufactured here in the United States?
    We can do all of this very quickly--in fact, years faster 
than we can develop new buildings. Within a matter of weeks we 
can have architects and engineers hired who can survey the 
buildings, prepare drawings, pull required permits, and within 
60 to 90 days we could have tens of thousands of highly-skilled 
craftworkers in the field executing the work, and for the most 
part completing that work by the end of the summer of this 
year.
    Am I doing something wrong? Okay.
    This would create family wage jobs at multiple levels 
ranging, again, from engineers to designers to factory workers 
to skilled craftworkers on jobsites. The resulting job skills 
will have lasting demand as we move towards a new economy 
wherein we value resource efficiency and move away from 
unstable imported energy sources.
    In closing, I just want to thank you again for having me 
here today and to the fact that we are having this discussion 
at this critical time, and emphasize that now is the time to 
take advantage of the opportunity and take a leap forward 
towards a more sustainable future where we can create tens of 
thousands of very high-skill jobs that can lift the economy, 
create a new foundation for the nation--a foundation that is 
good for both the economy, the environment, as well as people. 
And I look forward to answering any questions.
    [The statement of Ms. Sherman follows:]

     Prepared Statement of Jill Sherman, Gerding Edlen Development

    Chairwomen Woosley and Members of the Subcommittee, thank you for 
the opportunity to speak with you today about what we believe is a huge 
economic development opportunity. Although conditions are nothing short 
of brutal in today's real estate industry, at Gerding Edlen, we see, 
along with the significant challenges, enormous opportunity. Gerding 
Edlen Development has been working in the Green Building Development 
business for over 15 years. We are an Oregonbased company with offices 
in Seattle and Los Angeles. For over a decade, our company has led the 
nation in developing highly sustainable, transit oriented, mixed use 
urban high rise projects. We have more US Green Building Council LEED 
certified buildings than any other firm, with 39 either certified or in 
the process of certification, including seven platinum and 24 gold 
rated buildings.
    Along the way, with the help of our talented partners, we have 
pioneered numerous energy, water and sewage innovations. For example, 
we recently completed a high rise office building where not only are we 
using 63% less energy than a building designed to code, but we also 
took the entire building off the municipal sewer system. So, we are not 
connected to the sewer because we process 100% of our storm, grey and 
black water and actually recover more water than we can use in the 
building. Today the buildings we develop consume 50 percent less energy 
than a code compliant building and between 30% and 50% less water. We 
estimate that throughout our portfolio we have reduced carbon emissions 
by over 7,500 metric tons annually and reduced energy consumption by 61 
mega watts per year. Our current objective is to develop buildings that 
actually produce more energy than they use and produces no waste, what 
we call net zero buildings.
    In the aggregate, our projects to date represent almost $5 billion 
worth of economic activity and literally tens of thousands of family 
wage jobs with skill sets ranging from finance, to engineering to 
design to highly skilled union craftspeople in the field, to Americans 
working in our factories producing doors, windows, conduit, steel and 
the like. However, new construction is only the tip of the iceberg. 
There are millions of commercial, educational, medical and other very 
large buildings across our country that are energy and water hogs. 
Buildings that are needlessly wasting energy and desperate need 
retrofitting; and this is where we believe the current opportunity 
lies. Rather than putting a new roof on a building, why not add solar 
panels and cogeneration facilities to generate energy? Why not install 
day lighting sensors, occupancy sensors, and new lighting systems to 
reduce lighting loads and therefore electrical demand? Instead of 
replacing a broken sink or toilet, why not replace all of the plumbing 
fixtures and reduce water demand by 30 to 50%, while also reducing the 
sewage outflow? Instead of fixing a broken window, why not replace all 
of the outdated windows with new energy efficient glazing that is 
manufactured here in the US?
    We can do all of this very quickly, in fact years faster than we 
can develop new buildings. Within a matter of weeks we can have 
architects and engineers hired who can then survey buildings, prepare 
drawings and pull the required building permits within 60 to 90 days. 
Then we can have tens of thousands of highly skilled craft workers in 
the field executing the work and for the most part completing that work 
by the end of the summer of this year. This would create family wage 
jobs at multiple levels ranging from engineers and designers, to 
factory workers to skilled craft workers on jobsites. The resulting job 
skills will have lasting demand as we move towards a new economy 
wherein we value resource efficiency and move away from unstable 
imported energy sources.
    In closing, I just want to commend your leadership on this issue 
and emphasize that now is the time to take advantage of this 
opportunity and take a leap forward toward a more sustainable tomorrow 
creating tens of thousands of high skill jobs that will not only lift 
this economy, but will create a new foundation for our nation, a 
foundation that is good for the economy, good for the environment and 
good for people. I look forward to answering any questions.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much.
    Dr. Bogart?

 STATEMENT OF DR. WILLIAM T. BOGART, DEAN OF ACADEMIC AFFAIRS 
            AND PROFESSOR OF ECONOMICS, YORK COLLEGE

    Dr. Bogart. Madam Chairman, members of the Committee, I am 
honored to testify today. An aggressive push for a green 
economy is underway in the United States. Many people assert 
that green jobs can simultaneously improve environmental 
quality and reduce unemployment. These assertions are used to 
justify spending billions of dollars to subsidize preferred 
industries or technologies.
    The recent revelations regarding the misuse of federal 
government subsidies by AIG provide a warning of how large-
scale spending without sufficient due diligence can be 
misdirected. Today's testimony is organized around five 
questions that should be asked of those who would like to spend 
money subsidizing the creation of green jobs.
    Question One: What is the net increase in jobs or energy 
produced? The most prominently cited estimates of jobs created 
do not estimate the number of jobs that would be destroyed as a 
result of a move from current energy technology to alternative 
energy production. Many green jobs are substitutes for existing 
jobs. An increase in electricity generation from wind or other 
sources will substitute for energy from, say, coal, which, in 
turn, will then reduce employment in coal mining and 
processing.
    Question Two: What are the assumptions? The advocates for 
green jobs expenditures claim that their programs will have a 
large impact. This claim rests on economic multiplier analysis. 
Multipliers are based on the idea that an increase in activity 
by one firm will lead to an increase in activity by other 
firms. Multipliers are difficult to observe and must be 
estimated typically by a modeling technique known as input-
output analysis.
    Input-output analysis relies on two key assumptions, 
neither of which holds for green jobs. The first assumption is 
that the ratio of outputs to inputs is constant; in other 
words, no change in technology. The assumption that 
technological progress will operate favorably for wind, solar, 
and other preferred approaches while not operating for oil, 
gas, coal, and nuclear power is evidence that the jobs 
estimates are created using an inappropriate methodology.
    The second crucial assumption for input-output analysis is 
that there are fixed prices over time. That is unlikely to be 
the case for green jobs since the key justification for public 
support for green technology is that oil and coal will become 
more expensive, either for technological reasons or because of 
a tax based on carbon dioxide emissions.
    Question Three: What makes a job ``green''? Being green 
differs depending on who is doing the classification. For 
example, a report from the U.S. Conference of Mayors counts 
current nuclear power generation jobs as green jobs, yet does 
not count future jobs in nuclear power as green jobs. The 
United Nations has a definition that includes steelworkers who 
produce parts for wind turbines regardless of the greenness of 
the steel production.
    These definitional issues are not simply inconveniences 
that make it impossible to compare the claims of different 
reports. More importantly, they represent a fundamental 
confusion about the idea of a green job--a confusion that must 
be resolved before committing taxpayer dollars. The lack of 
transparency about the assumptions underlying various 
definitions provide incentives for special interest groups to 
have their jobs designated as green while excluding their 
rivals from the favored designation.
    Question 4: What is the added value from the job? One 
problem with the green jobs literature is it consistently 
counts jobs as a benefit rather than as a cost to the consumer. 
The purposes of all businesses, green or not, is not to use 
resources but to produce goods and services desired by 
consumers that could be sold for more than the cost of 
production. Many jobs created in response to government 
mandates are not a benefit but rather a cost from the 
consumer's viewpoint. Such costs may be worth incurring for the 
benefits from the program, but they should be counted 
correctly.
    Promoting inefficient use of labor and thereby raising 
consumer prices will steer resources towards technologies, 
firms, and industries that will be unable to compete without 
ongoing subsidies. Dooming the environmentally-friendly sector 
to an unending regime of subsidies is fiscally irresponsible 
and harmful to any efforts to build a competitive and 
environmentally-friendly economy.
    Question 5: How are technologies being chosen? The green 
jobs literature is selectively optimistic about favored 
approaches and pessimistic about disfavored ones. However, the 
premise that reorienting our economy in a greener direction by 
shifting to sustainable energy production is questionable 
because most jobs in renewable energy sectors appear to be 
subsidy-driven. Indeed, U.S. subsidies for renewable energy 
projects are so attractive that in 2008, BP announced that it 
dropped plans to build wind farms and other renewable projects 
in Britain; instead it is shifting its renewable programs to 
the United States, where government incentives for clean energy 
projects provide ``a convenient tax shelter for oil and gas 
revenues,'' as a BP spokesman noted.
    Royal Dutch Shell also announced it was abandoning wind 
energy products in Britain in favor of the U.S. These 
developments lend support to the idea that renewable energy is 
viable only when spenders are bribed by taxpayer support or 
coerced by a mandate.
    To attempt to transform modern society in the way proposed 
by the green jobs literature is an effort of staggering 
complexity and scale. There will be significant opportunity to 
develop new energy sources, new industries, and new jobs. I am 
confident that a market-based discovery process will do a 
better job of developing those industry sources--energy 
sources, industries, and jobs than a series of mandates or 
subsidies based on imperfect information and hidden 
assumptions.
    Thank you for giving me the opportunity to testify today, 
and I would be happy to answer any questions.
    [The statement of Dr. Bogart follows:]

 Prepared Statement of William T. Bogart, Dean of Academic Affairs and 
          Professor of Economics, York College of Pennsylvania

    Madam Chairman, members of the Committee, I am honored to testify 
before your Committee today on the question of green jobs and their 
role in our economic recovery.
    An aggressive push for a green economy is well underway in the 
United States. Many people routinely assert that ``green jobs'' can 
simultaneously improve environmental quality and reduce unemployment. 
These assertions are used to justify spending billions of dollars to 
subsidize preferred industries or technologies. The recent revelations 
regarding the (mis)use of Federal government subsidies by AIG provides 
a warning of how large-scale spending without sufficient due diligence 
can be misdirected. Before we repeat that experience in another 
industry, we should perform sufficient due diligence. Today's testimony 
is organized around five questions that should be asked of those who 
would like to spend money subsidizing the creation of ``green jobs.'' 
\1\
Question 1: What is the net increase in jobs/energy produced?
    The most prominently cited estimates of jobs\2\ created do not 
estimate the number of jobs that would be destroyed as the result of a 
move from current energy technology to alternative energy production. 
Many green jobs are substitutes for existing jobs. An increase in 
electricity generation from wind, solar, or other sources will 
substitute for energy from, say, coal-fired generation, which in turn 
will reduce employment in coal mining and processing. The net impact on 
employment will depend on the relative labor intensity of energy 
production in the respective sectors at the margin of added or 
subtracted production.
    The labor intensity--the labor required per unit of energy 
produced--is much higher in the green jobs sector. Advocates point to 
this higher labor requirement as a benefit because it will tend to 
increase employment. However, this confuses an end (goods and services 
valued by consumers) with a means (labor). If the cost of energy 
increases as a result of inefficient production, then the net benefits 
available to the citizens of the United States decreases. Many goods 
become more costly and American producers become less competitive in 
world markets. The efficiency of energy use has increased dramatically 
over time, which is one reason for our high productivity and standard 
of living. It would be a mistake to discard this proven record of 
progress in favor of untested, costly alternatives.
    Even in the favored green industries, increasing labor efficiency 
has been an important component in making the technologies more 
commercially viable. For example, corn-based ethanol cost reductions in 
the United States have been driven in part by economies of scale in 
farm operations and the advanced technology necessary to convert corn 
into ethanol. If instead we had thousands of workers diligently 
squeezing corn by hand we would not produce more biofuel but we would 
vastly inflate the number of green jobs and dramatically increase the 
cost of the fuel.
    Many green jobs reports start with the assumption that spending 
public money is the source of the additional economic activity. 
However, that expenditure comes from higher taxes now or in the future. 
Because people engage in activities to avoid taxation, the cost of the 
tax exceeds the revenue yielded by the tax, a phenomenon known as 
deadweight loss. Such actions are wasteful but they are an unavoidable 
part of any tax policy. Including deadweight loss in the analysis of 
the supposed value of green jobs created by increased public spending 
will reduce the net benefit of the subsidy. The green jobs advocacy 
literature does not incorporate such estimates, which implies that 
their results overstate the benefits. The most glaring oversight is 
that these issues are not even mentioned in the literature.
Question 2: What are the assumptions?
    The advocates for green jobs expenditures claim that their programs 
will have a large impact because of the added jobs and other benefits 
created as those hired into green jobs spend their paychecks. This 
claim rests on economic multiplier analysis. Multipliers are based on 
the idea that an increase in activity by one firm will lead to an 
increase in activity by other firms. For example, the contractor for a 
new football stadium buys concrete, the concrete subcontractor buys new 
tires for its trucks, all the firms' workers go out to dinner, and so 
forth. Multipliers are difficult to observe and must be estimated by 
indirect means, usually a modeling technique known as input-output 
analysis.
    Input-output analysis relies on two key assumptions, neither of 
which can be made for green jobs. The first is constant coefficients 
production, which means that the ratio of outputs to inputs is constant 
regardless of the scale of production or the time period. This 
eliminates the possibility that inputs may be substituted for each 
other, either because of technical progress or because of changes in 
factor prices. For example, a typical assumption would be that if a 
dollar of energy was required to produce $10 of steel at the time the 
input-output table was created, then this relation will continue to 
hold. In reality, if the price of energy increases, the relation is 
likely to change as higher energy prices induce steel producers to 
change production techniques to reduce the energy used per unit of 
steel. Since green jobs proponents concede that green energy will cost 
more per unit than conventional fuels,\3\ the ratio of energy costs to 
production is not constant and this assumption is violated. The 
assumption that technological progress will operate favorably for wind, 
solar, and other preferred approaches while not operating for oil, gas, 
coal, and nuclear power is prima facie evidence that the jobs estimates 
are created using an inappropriate methodology.
    The second crucial assumption for input-output analysis is that the 
relationship between production factor prices is constant. In most 
cases, the relation between inputs and outputs is calculated using 
dollar values rather than physical quantities. This approach is valid 
only if the physical quantities and the monetary values have a constant 
ratio, in other words if there are fixed prices over time. That is 
unlikely to be the case for green jobs since a key justification for 
public support for green technology is that oil and coal will become 
more expensive, either for technological reasons or because of a tax 
based on carbon dioxide emissions. Because of the pervasive role of 
energy, such changes would alter factor prices throughout the economy, 
again making the input-output analysis inappropriate.
Question 3: What makes a job ``green''?
    There is no standard definition of a green job. According to the 
studies most commonly quoted, green jobs pay well, are interesting to 
do, produce products that environmental groups prefer, and do so in a 
workplace that is unionized or expected to be unionized in the near 
future. Such criteria have little to do with the environmental impacts 
of the jobs.
    Being green differs depending on who is doing the classification. 
In an odd twist, the Conference of Mayors report (p. 12) counts current 
nuclear power generation jobs as green jobs, yet does not count future 
jobs in nuclear power as green jobs. The United Nations report excludes 
all nuclear power related jobs and many recycling jobs, while at the 
same time expanding their definition in other areas by including all 
jobs asserted to ``contribute substantially to preserving or restoring 
environmental quality.'' (p. 3) The UN version of green jobs is 
extended to include jobs in the supply chain. For example, wind turbine 
towers involve large amounts of steel and so employment in the steel 
industry counts so long as the steel ends up in a turbine. The steel 
jobs themselves are not required to have a low environmental impact, it 
is sufficient that the steel produced goes to a favored product. As a 
result, important value judgments are embedded in the definitions and 
not explained.
    These definitional issues are not simply inconveniences that make 
it impossible to compare the claims of different reports. More 
importantly, they represent a fundamental confusion about the idea of a 
green job, a confusion that must be resolved before committing taxpayer 
dollars. The lack of transparency about the assumptions underlying 
various definitions provide incentives for special interest groups to 
have their jobs designated as green while excluding their rivals from 
the favored designation.
Question 4: What is the added value from the job?
    One problem with the green jobs literature is that it consistently 
counts jobs as a benefit rather than a cost. The purpose of a business, 
green or not, is not to use resources but to produce a good or service 
desired by consumers that could be sold for more than the cost of 
production. For a given level of output, businesses that use more 
resources are less efficient--have higher costs--than those using fewer 
resources. Many jobs created in response to government mandates are not 
a benefit of the program but rather a cost. Such costs may be worth 
incurring for the benefits a program produces, but they must be counted 
as costs not benefits.
    The Conference of Mayors report includes lawyers and administrators 
of regulations as benefits of green jobs spending. This is analogous to 
claiming an increase in prison guards as a benefit of the war on drugs. 
By making labor the end, rather than treating labor as the means to 
production of environmentally friendly goods and services, the 
literature makes a foundational error. Promoting inefficient use of 
labor will steer resources towards technologies, firms, and industries 
that will be unable to compete in the marketplace without ongoing 
subsidies. Dooming the environmentally friendly sector to an unending 
regime of subsidies is fiscally irresponsible and harmful to any 
efforts to build a competitive and environmentally friendly economy.
    Many of the benefits of producing products accrue to the owners of 
the intellectual property underlying the products. In the case of wind 
power, most of the patents and other key intellectual property are held 
by European firms. We import the high value parts of the process, and 
Americans perform the relatively low value operations of assembly and 
installation. This is analogous to the situation in much U.S. 
manufacturing in which Chinese firms perform assembly work but U.S. 
firms capture most of the value.
Question 5: How are technologies being chosen?
    The green jobs literature calls for massive shifts in power 
generation technologies. The literature is selectively optimistic about 
favored approaches (wind, solar, biomass) and pessimistic about 
disfavored ones (coal, nuclear). However, the premise that reorienting 
our economy in a greener direction by shifting to ``sustainable'' 
energy production is questionable because most jobs in renewable energy 
sectors appear to be subsidy driven. For example, a study done for the 
American Wind Energy Association and the Solar Energy Research and 
Education Foundation estimated that if the investment tax credit for 
solar/photovoltaic projects and the production tax credit for wind 
energy were not renewed at the end of 2008, then those industries could 
lose 77 percent of their jobs.\4\
    Indeed, U.S. subsidies for renewable energy projects are so 
attractive that in 2008, BP announced that it dropped plans to build 
wind farms and other renewable projects in Britain; instead it is 
shifting its renewable programs to the United States, where government 
incentives for clean energy projects provide ``a convenient tax shelter 
for oil and gas revenues,'' as a BP spokesman noted.\5\ Royal Dutch 
Shell also announced it was abandoning wind energy projects in Britain 
in favor of the U.S.\6\ In Germany, environmental advocates are arguing 
that wind power is an inefficient and ineffective method of reducing 
CO2 emissions.\7\ These developments lend support to the idea that 
renewable energy is viable only where there is taxpayer support or 
mandates.
    To attempt to transform modern society in the way proposed by the 
green jobs literature is an effort of staggering complexity and scale. 
To do so based on wishful thinking and bad economics would be the 
height of irresponsibility. There will be significant opportunities to 
develop new energy sources, new industries, and new jobs in the future. 
I am confident that a market-based discovery process will do a far 
better job of developing those energy sources, industries, and jobs 
than a series of mandates or subsidies based on imperfect information 
and hidden assumptions.
    Thank you for giving me the opportunity to testify today. I would 
be happy to answer any questions.

                                ENDNOTES

    \1\ This testimony is based on research conducted jointly with 
Andrew Morriss, Andrew Dorchak, and Roger Meiners, ``7 Myths About 
Green Jobs'' available at http://papers.ssrn.com/sol3/
papers.cfm?abstract--id=1357440 and ``Green Jobs Myths'' available at 
http://papers.ssrn.com/sol3/papers.cfm?abstract--id=1358423.
    \2\ United States Conference of Mayors, U.S. METRO ECONOMIES: 
CURRENT AND POTENTIAL GREEN JOBS IN THE U.S. ECONOMY, 2008; American 
Solar Energy Society, RENEWABLE ENERGY AND ENERGY EFFICIENCY: ECONOMIC 
DRIVERS FOR THE 21ST CENTURY, 2007; Center for American Progress, GREEN 
RECOVERY: A PROGRAM TO CREATE GOOD JOBS AND START BUILDING A LOW-CARBON 
ECONOMY, 2008; United Nations Environment Program, GREEN JOBS: TOWARDS 
DECENT WORK IN A SUSTAINABLE, LOW-CARBON WORLD, 2008.
    \3\ For example, the study from the Center for American Progress 
(p. 6) notes that $1 million spent on solar energy will currently 
produce considerably less energy than $1 million spent on oil.
    \4\ Navigant Consulting, Economic Impacts of the Tax Credit 
Expiration. Prepared for the American Wind Energy Association and the 
Solar Energy Research and Education Foundation, 13 February 2008, 
Navigant Consulting, Bedford, MA.
    \5\ Terry Macalister, Blow to Brown as BP scraps British renewable 
plan to focus on US, THE GUARDIAN (7 November 2008).
    \6\ Danny Fortson, Shell to quit wind projects, THE SUNDAY TIMES (7 
December 2008).
    \7\ Anselm Waldermann, Wind Turbines in Europe Do Nothing for 
Emissions-Reduction Goals, SPIEGEL ONLINE INTERNATIONAL (10 February 
2009), http://www.spiegel.de/international/business/
0,1518,606763,00.html.
                                 ______
                                 
    Chairwoman Woolsey. Thank you very much.
    Mr. Ringo?

             STATEMENT OF JEROME RINGO, PRESIDENT,
                      THE APOLLO ALLIANCE

    Mr. Ringo. Thank you very much, Madam Chair and members of 
the Committee, for inviting me to testify.
    We face many challenges today, some of which are foreign 
oil dependency, puts our national security and economy future 
at risk. We face the collapse of a financial sector and growing 
threats of global warming and all its economic, environmental, 
and human costs.
    Since 2003, the Apollo Alliance has been talking about 
economic stimulation through green jobs, and under the umbrella 
addresses climate change and energy independence. We believe 
our nation can and must achieve a triple bottom line: energy 
security, climate stability, and broadly-shared economic 
prosperity. The message of the Apollo Alliance has been working 
for 6 years--the message of clean energy, good jobs, and now 
the economic message of our time.
    Green collar jobs are well-paid career-track jobs that 
contribute directly to preserving or enhancing environmental 
quality. They run the gamut from low-skill, entry-level 
positions to high-skill, higher-paid jobs, and include 
opportunities for advancement in both skill and wages.
    Green collar jobs tend to be local. Building retrofits, 
solar panel repairs, transit line construction--these jobs can 
not be outsourced. Many manufacturing jobs can be green collar 
jobs if we start making the input of the clean energy economy 
here. There are 750,000 green collar workers in America today, 
according to Leo Gerard, the president of the United 
Steelworkers of America, and Michael Peck, the CEO of Gamesa, 
which is a wind turbine manufacturing facility in Pennsylvania.
    Every new American bill creating demand for renewable 
energy and energy efficiency services creates new jobs overseas 
even though we have a robust manufacturing infrastructure and a 
skilled workforce here. Fully half of America's existing wind 
turbines are manufactured overseas, and we rank fifth among 
countries that manufacture solar components, even though the 
solar cells were born in America.
    Congress can take advantage of this incredible opportunity 
to strengthen and expand America's middle class by boosting our 
energy manufacturing sector. Congress can do this, for example, 
by helping the clean energy manufacturing supply chain retool 
and retrain to create a clean energy manufacturing supply and 
ensuring labor and domestic content standards are included.
    I have included as part of the written testimony a letter 
signed by the Apollo Alliance and business supporters and will 
be sent to congressional leadership. The letter makes the case 
for why we must invest in domestic manufacturing and ensure 
that clean energy products are made in America. Apollo will be 
rolling out our manufacturing proposal in late April and 
sending a delegation to our state and local coalition members 
to meet with our congressmen over the break--over the Spring 
Break.
    We are more likely to build a new energy future with good 
jobs for working Americans if we ensure any new energy policy 
is an investment strategy as well as a regulatory strategy. 
Thank you for this opportunity to testify.
    [The statement of Mr. Ringo follows:]

   Prepared Statement of Jerome Ringo, President, the Apollo Alliance

    Chairwoman Woolsey and members of the subcommittee, thank you for 
inviting me here today to talk about an issue of crucial importance to 
our nation's future.
    For Americans this is a time of daunting challenges and boundless 
opportunities. We have become more and more dependent on foreign oil, 
putting our national security and economic future at risk. We have seen 
a collapse of the financial sector that has had rippling effects on the 
rest of the American economy. And we have seen the growing threat of 
climate instability and all its economic, environmental and human 
costs.
    Nevertheless our energy, climate, and economic crises also present 
tremendous opportunities. The Apollo Alliance offers a unique 
perspective on the issue before this committee, ``Green Jobs and their 
Role in Our Economic Recovery.'' As a coalition of labor, business, 
environmental, and social justice leaders and organizations, we believe 
our nation can and must achieve a triple bottom line: energy security, 
climate stability, and broadly shared economic prosperity. My goal 
today is to illustrate how clean energy and good jobs go hand in hand.
    In 2003, the Iraq War impressed upon the country the need for 
energy security, and the climate change debate was in full force. The 
founders of the Apollo Alliance believed they could capture the 
interest of the Bush administration by talking about economic 
stimulation through green jobs, and under that umbrella, address 
climate change and energy independence. They catalyzed the conversation 
about green-collar jobs and tried to impress upon the powers that be 
that the polemical discussion that pitted jobs against the environment 
was false and old. The past administration didn't want to listen. But 
change has come and President Barack Obama understands that investment 
in a clean energy economy means jobs and economic prosperity.
    Last time I was in Washington, D.C. something happened that made me 
so excited. It was when President Obama signed the executive order on 
middle class communities. He walked up to me and grabbed my hand. I 
said, ``Mr. President, I'm Jerome Ringo.'' He said, ``I know who you 
are. You're the president of Apollo Alliance. You guys are doing great 
work. Keep up the good work.''
    The reason why I was so excited is that the message the Apollo 
Alliance has been working on for six years--the message of clean 
energy, good jobs--is now the economic message of our times.
    The Apollo Alliance's comprehensive economic development strategy, 
The New Apollo Program, recognizes that great challenges bring with 
them great opportunity. We say no to business as usual and yes to a new 
path that will build a clean energy economy that creates millions of 
jobs--high-quality jobs that pay decent wages and support families. We 
say yes to a climate stability agenda that also strengthens national 
security. The Apollo Alliance estimates that an ambitious $500 billion 
in federal spending over 10 years would create over 5 million jobs. 
This includes a broad range of activities such as building efficiency, 
renewable energy investments, smart growth, advanced grid technology, 
research and development initiatives and a ``cap and invest'' program 
to reduce climate change pollution.
    What are green-collar jobs? Green-collar jobs are well-paid, career 
track jobs that contribute directly to preserving or enhancing 
environmental quality. They run the gamut from low-skill, entry-level 
positions to high-skill, higher-paid jobs, and include opportunities 
for advancement in both skills and wages.
    Green-collar jobs tend to be local. Building retrofits, solar panel 
repairs, transit line construction--these jobs can't be outsourced. 
Most of these jobs are in industries that already exist, but that are 
just now getting involved in the green economy because of policy 
changes and public commitments to energy efficiency, renewably energy, 
and transportation.
    Green-collar jobs are here and growing and exist in many of the 
states of this committee's members.
    A new report by the Political Economy Research Institute at the 
University of Massachusetts, Amherst says that investment in energy 
efficiency retrofits, a smart electrical transmission grid, rapid 
transit and renewable energy will yield over 37,000 jobs in Congressman 
Grijalva's state of Arizona and in Congressman Kline's state of 
Minnesota.
    Environment California predicts that by meeting California's 
Renewable Portfolio Standard goal of 20 percent by 2010--119,000 
person-years of employment will be created at an average salary of 
$40,000. And there are two measures on November's ballot that would 
raise the portfolio standard.
    The clean energy economy is present in Pennsylvania, Michigan, New 
Jersey, Oregon, South Carolina and nearly every other state in the 
union. There is no doubt that investment in the clean energy economy 
creates and retains jobs--jobs like the ones held by workers at 
Republic Windows and Doors in Chicago. The company's fortune is 
evidence of the success of the American Recovery and Reinvestment Act 
(ARRA) and its considerable investment in weatherization and energy 
efficiency.
    In early December 2008, 260 members of United Electrical, Radio and 
Machine Workers of America Local 1110 lost their jobs at the window 
company. Last month, Kevin Surace, the chief executive officer of 
Serious Materials, a Sunnyvale, California-based manufacturer of ultra 
energy efficient windows, reached agreement with the plant's former 
owner and with United Electrical Workers and purchased the Chicago 
factory. He also committed to honoring the union contract and to 
eventually rehiring all of the plant's union workers. In late March 
2009, President Obama commended Mr. Surace for his work to reopen 
another window plant in Vandergrift, Pennsylvania where 150 people once 
worked.
    The potential of the clean energy economy is evident. What's not 
evident is whether we have the human capital or the political will to 
ensure the jobs are American. In 2005, a National Association of 
Manufacturers study found that 90 percent of survey respondents expect 
a moderate to severe shortage of qualified, skilled employees like 
machinists and technicians. And the National Renewable Energy Lab 
concurs that a shortage of skilled labor is a large obstacle to an 
economy with strong renewable energy and energy efficiency industries.
    We've had the political will to pass policies that create the 
demand for the clean energy economy--the Production Tax Credit, 
Investment Tax Credit, and the ARRA which appropriated more than $100 
billion dollars for clean energy and green-collar jobs.
    The missing element is the supply side. We don't make most of the 
systems involved in producing clean energy. Fully half of America's 
existing wind turbines were manufactured overseas. And we rank fifth 
among countries that manufacture solar components, even though the 
solar cell was born in America. The fact that other countries are 
prepared to deliver these products--and we are not--means that every 
new American bill creating demand for renewable energy systems and 
energy efficiency services actually creates new jobs overseas, even 
though we have a robust manufacturing infrastructure and a skilled 
workforce. We have an incredible opportunity to strengthen and expand 
America's middle class by boosting our clean energy manufacturing 
sector.
    Congress can take advantage of this opportunity by implementing the 
following:
    1. Provide direct federal funding for clean energy manufacturers to 
retool their facilities and retrain their workers to develop, produce, 
and commercialize clean energy technologies.
    2. Attach standards to funding: condition federal support to 
manufacturers on their ability to meet labor and domestic content 
standards.
    3. Increase funding for the Manufacturing Extension Partnership, 
both to expand its role in strengthening the clean energy supply chain 
and to establish partnerships with regional/local development and 
manufacturing support organizations.
    4. Increase funding for the Green Jobs Act and direct funds 
administered under the Act toward workforce and skill standards 
development for the clean energy manufacturing industries.
    5. Create a ``Presidential Task Force on Clean Energy 
Manufacturing'' to bring together a range of federal agencies to make 
the manufacturing of clean energy systems and components a national 
priority.
    Only by ensuring that all Americans come out winners will we build 
enough public support to do what must be done on the scale necessary to 
boost the economy, stabilize the climate, and achieve energy 
independence.
    If I leave you with one message today, it is this: We're more 
likely to build a new energy future with good, green-collar jobs for 
working Americans if we ensure that a new energy policy is an 
investment strategy as well as a regulatory strategy.
    We have called on the ``can do'' spirit of the original Apollo 
program in our Alliance's name because we believe the American people 
are once again ready for a great challenge. Energy is the 
transformative issue of our generation.
    The challenge for Congressional leaders today will be to ensure 
that we all get there together: working men and women alongside 
industry, environmentalists, and our national security community.
    We're confident this great nation can get the job done; we're 
confident we can get there with your leadership.
    Thank you.
                                 ______
                                 
    [Additional submission of Mr. Ringo follows:]

                                           Tuesday, March 24, 2009.
Hon. Nancy Pelosi, Speaker of the House; Hon. Henry A. Waxman,
U.S. House of Representatives, Washington, DC.
Hon. Harry Reid, the Office of Senate Majority Leader; Hon. Jeff 
    Bingaman,
U.S. Senate, Washington, DC 20510 Washington, DC.
    Dear Speaker Pelosi, Majority Leader Reid, Congressman Waxman, and 
Senator Bingaman: As Congress prepares to debate the 2009 energy bill, 
you have a critical opportunity not only to help establish America as a 
global leader in clean energy, but also to strengthen our middle class, 
which has shed 4.6 million manufacturing jobs since 1999, including 
more than a million since late 2007. We can accomplish both of these 
ends by investing in the manufacture of renewable energy and energy 
efficiency systems, especially the small firms that make component 
parts for these systems.
    Demand for clean energy technology is on the rise: the domestic 
market for solar panels, wind turbines, and biofuel equipment will 
reach $325 billion annually by 2018. A national renewable electricity 
standard will increase this demand, as will an eventual carbon pricing 
program. However, if the energy bill does not help domestic 
manufacturers retool their facilities and retrain their workers to 
produce clean energy products, we will be unable to meet this demand 
with American supply. And if we do not ramp up American supply, the 
jobs and other economic benefits of the clean energy future will go 
overseas, leaving us just as ``energy dependent'' on foreign countries 
as we currently are for fossil fuels.
    We must invest in domestic manufacturing to ensure that clean 
energy products are made in America. This investment should use 
multiple financial instruments, including direct loans, bonds, and tax 
credits, and target the entire supply chain, from original equipment 
manufacturers to component parts suppliers. It should help 
manufacturers meet international product standards so that systems and 
components are compatible with their foreign counterparts, granting us 
access to overseas markets. Importantly, federal dollars should go only 
to firms providing well-paying jobs with benefits.
    We estimate that $50 billion in federal and private financing for 
industrial retooling and retraining programs could create 1 million new 
jobs (250,000 direct manufacturing jobs and an additional 725,000 
indirect jobs) and generate as much as $120 billion in industry 
revenue. This investment would capture only a fraction of the clean 
energy economy's potential: by installing enough new clean energy 
equipment to generate 25 percent of our electricity, we could create 
approximately 3.5 million new jobs (1 million direct manufacturing jobs 
and 2.5 million indirect jobs) and revenues of over $400 billion.
    Investing in manufacturing in the 2009 energy bill will ensure that 
clean energy technologies are not only installed in America, but made 
and assembled here as well. We need a strong commitment by the federal 
government to invest in quality manufacturing jobs, invest in energy 
independence, and invest in our future.
    Thank you for consideration of this important request.
            Sincerely,
                                  Phil Angelides, Chairman.

    In partnership with: Peter Altman, Natural Resources Defense 
Council; Bob Baugh, AFL-CIO Industrial Union Council; Robert Borosage, 
Campaign for America's Future; Michael Coast, Michigan Manufacturing 
Technology Center & American Small Manufacturers Coalition; David 
Foster, Blue Green Alliance; Adam Friedman, New York Industrial 
Retention Network; David Gardiner, David Gardiner & Associates; Leo 
Gerard, United Steelworkers; Carrie Hines, American Small Manufacturers 
Coalition; Mike Klonsinski, Wisconsin Manufacturing Extension 
Partnership & American Small Manufacturers Coalition; Brad Markell, 
United Automobile Workers; Loch McCabe, Shepherd Advisors; Jeffrey 
Mittelstadt, National Council for Advanced Manufacturing; Scott Paul, 
Alliance for American Manufacturing; Michael Peck, Gamesa; Kevin 
Pranis, Change to Win; Mark Wagner, Johnson Controls, Inc.; Joel 
Yudken, High Road Strategies.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Dr. Wolfe?

 STATEMENT OF DR. CLINTON WOLFE, EXECUTIVE DIRECTOR, CITIZENS 
                FOR NUCLEAR TECHNOLOGY AWARENESS

    Dr. Wolfe. Madam Chairman, members of the Committee, it is 
an honor to testify before you today. I represent a nonpartisan 
organization whose several hundred members are concerned about 
our energy policy, greenhouse gas emissions, acidification of 
the oceans, and the future of this planet. Our mission is to 
educate relative to all things nuclear, including commercial 
nuclear power.
    We are headquartered in Aiken, South Carolina, and we are 
very proud that more than half of our electricity in South 
Carolina comes from nuclear power plants and more is on the 
way. We are also proud that our entire federal delegation, 
senators and representatives, Republicans and Democrats are 
strong supporters of nuclear power. We believe this is the way 
it should be. After all, nuclear energy provides the least 
expensive, cleanest, safest source of energy for our citizens.
    How shall we define green jobs? It seems to me that we 
should define green as being low or no harmful emissions 
released to the environment such as particulates, carbon, 
sulfur, or nitrogen oxides. Two types of electrical generation 
need to be satisfied in the future. One will be niche 
applications to bring power to a remote location or a mobile 
facility, or to augment power from the grid in certain 
commercial and real estate applications.
    A second need, requiring many times more energy than niche 
markets, is baseload energy. This is the electricity that is 
produced 24 hours a day, 365 days a year. We have basically two 
options for providing baseload electricity: fossil fuel and 
nuclear.
    Some will argue that wind and solar energies can provide 
baseload energy, but by definition baseload is consistent and 
these two sources are extremely variable. Nuclear already 
provides 20 percent of our nation's electricity which equates 
to 75 percent of our country's emission-free electricity 
production.
    We believe that workforce development to support a needed 
nuclear renaissance is vitally important. Retirement rates 
among existing nuclear workers may exceed 50 percent in less 
than 10 years, and the pipeline of new workers hasn't been 
filled for 30 years.
    We should maximize the social good to come from these 
programs by investing in skills, trades, and education. We 
should not spend the money training people to perform menial 
tasks associated with a particular technology and then be faced 
with retraining when the demand for that particular task 
diminishes.
    When we talk about workforce development for the nuclear 
renaissance, we are talking about skills and crafts such as 
certified welders, pipefitters, health protection technicians, 
maintenance mechanics, operators, electricians, as well as 
graduate engineers in nuclear, civil, materials, chemical, 
electrical and mechanical fields, not to mention all the 
support personnel. We are talking about investing in people in 
a way that they can be a resource for the economy in good-
paying jobs, no matter in which industry they eventually work.
    Supporting workforce development in the nuclear industry 
will provide short-term education and training for needed 
replacements in the industry and will make it possible for new 
nuclear plants to be designed, licensed and built. Hundreds of 
thousands of jobs are likely to be created. Quick action is 
needed if we are to fill those jobs domestically instead of 
importing people with the required skills from other countries.
    One scenario for energy independence is that if we move 
toward electric vehicles, plug-in hybrids, or hydrogen powered 
autos, we will need enormous amounts of electricity that must 
be produced in a clean, safe manner. This would require a huge 
expansion of the nuclear energy supply and perhaps open 
opportunities in the niche markets for solar and wind power, 
and we would be independent of foreign oil.
    In August, 2008 the laboratory directors of the Department 
of Energy's National Laboratories issued a report entitled, ``A 
Sustainable Energy Future: The Essential Role of Nuclear 
Energy.'' This report is a roadmap for nuclear energy policy 
produced by the leaders of some of our greatest science and 
technology resources. Dr. Chu himself is a signer of that 
document. One of the marquee recommendations of the report is, 
``Establish a national priority to immediately deploy advanced 
light water reactors to meet our nation's increasing energy 
demand while limiting greenhouse gas emissions.''
    In conclusion, I would like to emphasize that we believe 
nuclear is the greenest of the green energies, and we request 
that Congress pursue public policy initiatives that will 
support growth of the nuclear industry to help make us energy 
independent. Thank you for allowing me to speak and I will be 
happy to take questions.
    [The statement of Dr. Wolfe follows:]

  Prepared Statement of Clinton R. Wolfe, Ph.D., Executive Director, 
           Citizen's for Nuclear Technology Awareness (CNTA)

    Madam Chairman, members of the Committee, it is an honor to testify 
before you today. I represent a nonpartisan organization whose several 
hundred members are concerned about our energy policy, greenhouse gas 
emissions, acidification of the oceans, and the future of this planet. 
Our mission is to educate relative to all things nuclear, including 
commercial nuclear power. We are headquartered in Aiken, SC. We are 
very proud that more than half of our electricity in SC comes from 
nuclear power plants and more is on the way. We are also proud that our 
entire federal delegation, senators and representatives, republicans 
and democrats are strong supporters of nuclear power. We believe this 
is the way it should be. After all, nuclear energy provides the least 
expensive, cleanest, safest source of energy for our citizens.
    How shall we define Green jobs? It seems to me that we should 
define ``Green'' as being low or no harmful emissions released to the 
environment such as particulates, carbon, sulfur, or nitrogen oxides.
    What are the needs addressed by Green jobs? Two types of electrical 
generation need to be satisfied in the future. One will be ``niche'' 
applications to bring power to a remote location or a mobile facility, 
or to augment power from the grid in certain commercial and real estate 
applications. A second need, requiring many times more energy than 
niche markets is baseload energy. This is the electricity that is 
produced 24 hours a day, 365 days a year. We have basically two options 
for providing baseload electricity--fossil fuel and nuclear. Some will 
argue that wind and solar energies can provide baseload energy, but, by 
definition, baseload is constant and these two sources are extremely 
variable. Nuclear already provides 20% of our nation's electricity 
which equates to 75% of our country's emission-free electricity 
production. We believe that workforce development to support a needed 
Nuclear Renaissance is vitally important. Retirement rates among 
existing nuclear workers may exceed 50% in less than ten years, and the 
pipeline of new workers hasn't been filled for 30 years.
    What are the desirable characteristics of the jobs created? We 
should maximize the social good to come from these programs by 
investing in skills, trades, and education. We should not spend the 
money training people to perform menial tasks associated with a 
particular technology and then be faced with retraining when the demand 
for that particular task diminishes. When we talk about workforce 
development for the Nuclear Renaissance we are talking about skills and 
crafts such as certified welders, pipefitters, health protection 
technicians, maintenance mechanics, operators, and electricians as well 
as graduate engineers in nuclear, civil, materials, chemical, 
electrical and mechanical fields not to mention all the support 
personnel. We are talking about investing in people in a way that they 
can be a resource for the economy in good paying jobs, no matter in 
which industry they eventually work.
    What is the role in the economic recovery and long-range impact? 
Supporting workforce development in the nuclear industry will provide 
short-term education and training for needed replacements in the 
industry and will make it possible for new nuclear plants to be 
designed, licensed and built. Hundreds of thousands of jobs are likely 
to be created. Quick action is needed if we are to fill those jobs 
domestically instead of importing people with the required skills from 
other countries.
    One scenario for energy independence is that, if we move toward 
electric vehicles, plug-in hybrids or hydrogen powered autos, we will 
need enormous amounts of electricity that must be produced in a clean, 
safe manner. This would require a huge expansion of the nuclear energy 
supply and perhaps open opportunities in the niche markets for solar 
and wind power, and we would be independent of foreign oil.
    In August, 2008 the laboratory directors of the Department of 
Energy's National Laboratories issued a report entitled, ``A 
Sustainable Energy Future: The Essential Role of Nuclear Energy.'' This 
report is a roadmap for nuclear energy policy produced by the leaders 
of some of our greatest science and technology resources. Dr. Chu is a 
signer of that document. One of the marquee recommendations of the 
report is ``Establish a national priority to immediately deploy 
advanced light water reactors to meet our nation's increasing energy 
demand, while limiting greenhouse gas emissions * * *''
    In conclusion, I would like to emphasize that we believe nuclear is 
the greenest of the Green energies and we request that Congress pursue 
public policy initiatives that will support growth of the nuclear 
industry to help make us energy independent.
    Thank you for allowing me to speak and I will be happy to answer 
your questions.
                                 ______
                                 
    [Additional submissions of Dr. Wolfe follow:]

                  ``There's a Green Hangover Coming''

    A modified version of an op-ed that Dr. Clinton R. Wolfe submitted 
to Aiken Standard newspaper on January 30, 2009. It ran on Monday, 
February 2, 2009.

    The recent holidays may have provided some Americans another reason 
to try the latest hangover remedy. Our nation wrestles with solutions 
to hangovers of a different sort. First we had a housing crisis, then a 
credit crisis. The big three automakers awakened to a realization that 
they have over imbibed. Global warming concerns all of us and we are 
dependent on fossil fuels for transportation and more than 70% of our 
electricity generation.
    In our eagerness to remedy the energy issues, state after state and 
even the federal government mull mandates that some fixed percentage of 
a state's energy be derived from ``green'' sources. Now most people 
will agree that it is worthwhile to strive for such a goal if what we 
mean by ``green'' is that the source is ``no, or low emissions'' 
energy. Actually, the country already produces 20% of its electricity 
from nuclear power plants so mandates that encourage states with less 
than 20% nuclear to build more nuclear capacity would be most welcome 
and it would not represent a technological hurdle. The problem with 
merely expanding nuclear capacity to meet our ``Green'' goals is that 
nobody makes a buck at the federal trough. You see, we know how to 
integrate more clean, safe, cost effective nuclear capacity into our 
nationwide grid and we don't need incentives to do that, other than 
loan guarantees to protect utilities and ratepayers against external 
events not of their own making.
    If we exclude nuclear from the candidate technologies to receive 
the government dole, then the mandates will have to be met by 
entrepreneurs hawking solar, wind, biomass, chicken manure, or whatever 
else they can dream up in their garages. We will pay handsome 
incentives to them for producing very expensive energy at very 
inopportune times. The timeliness of energy delivery is a very 
important parameter. Utilities depend upon coal and nuclear plants to 
provide what is known as ``baseload'' power. ``Baseload'' power is just 
what its name implies. It is the minimum steady state electricity 
requirement 24 hours a day, 365 days a year. When electricity demand 
rises above that minimum, most power producers rely on natural gas 
powered turbines to provide this ``peaking'' power or ``load following 
``capability, because these turbines can be started, stopped and 
throttled much more easily and rapidly than coal or nuclear fueled 
plants. Natural gas, of course, is a greenhouse gas producer and the 
fuel is very expensive compared to nuclear.
    It is important to make some obligatory comments relative to the 
``Green'' movement. First, the first law of thermodynamics tells us 
that ``energy can neither be created nor destroyed'', therefore, there 
is no such thing as ``renewable'' energy. Call it sustainable, 
inexhaustible, low emission, but don't call it ``renewable.'' Those who 
attempt to exclude nuclear from consideration as satisfying ``Green'' 
requirements often cite noncompliance with ``renewable'' as their 
rationale.
    Secondly, I strongly support significant investment in research and 
development of alternative energy candidates. Expenditure of federal 
funds in qualified research, development and demonstration projects is 
appropriate as we look for advances to bring these technologies closer 
to economic viability. The objection arises when we try to leapfrog 
decades of needed development and force compliance with mandates that 
can't be met with today's technology, unless of course, we count 
nuclear.
    Florida recently commissioned an independent study that concluded 
that their proposed mandates would cost two to three times more if 
supplied by wind and solar than if the energy were supplied by nuclear.
    OK, so your state won't be able to meet its mandates for ``Green'' 
energy, so what? Well, we did call them mandates, not goals. That means 
that somebody will interpret that to mean that if you can't produce 
your quota of energy from trough-eligible technology, you will have to 
import it from someplace that has an excess of it. Oh happy days in the 
Dakotas! Wait! It gets better. You will have to pay for the 
transmission and distribution of the energy produced from places where 
the wind comes sweeping down the plain. Most of the areas likely to 
generate wind power are located a half a continent away from the 
population centers that will use the electricity. Now that wouldn't be 
so bad if there is enough of it at a baseload rate, but wind is quite 
fickle and most wind turbines operate at less than 30% of capacity. 
That means you have to build transmission and distribution 
infrastructure sized at three times the amount of electricity you will 
actually generate.
    I'm sorry, there's still more. Now that this wind generated 
electricity is flowing to us whenever the wind blows, we have an 
increased need to load follow with gas turbines because now both the 
supply and the demand are variable. One can envision a scenario where 
some areas may have to take emission free nuclear offline to make room 
for the wind energy and load follow with natural gas turbines. So the 
upshot is that the more wind (or solar) we use, the more greenhouse gas 
we produce! What's wrong with this picture?
    Some have been promoting wind power as an answer to our energy 
woes. I don't know if they own any windmills, but I'll bet they own 
some natural gas. Tell your congressmen, senators and representatives 
to think this one through.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

    Chairwoman Woolsey. Thank you, Dr. Wolfe.
    Ms. Krepcio?

    STATEMENT OF KATHY KREPCIO, EXECUTIVE DIRECTOR, JOHN J. 
 HELDRICH CENTER FOR WORKFORCE DEVELOPMENT, RUTGERS UNIVERSITY

    Ms. Krepcio. Good morning, Chairwoman Woolsey and members 
of the Subcommittee. I am the Executive Director of the John J. 
Heldrich Center for Workforce Development at Rutgers 
University, and as one of the nation's leading university-based 
research and policy centers dedicated to the American 
workforce, the Heldrich Center believes that the emergence of a 
green economy will lead to a new generation of jobs as well as 
the eventual transformation of traditional occupations across 
many industries.
    As our country transitions to a cleaner energy economy, 
many are working to identify the specific occupations and sills 
that workers must have to succeed. To assist them, the Heldrich 
Center recently produced a brief entitled ``Preparing the 
Workforce for a Green Jobs Economy'' to assist educators and 
others interested in preparing workers for green employment. 
Based on our research, my testimony will quickly look to answer 
six key questions.
    First, what is a green job? Green jobs can be broadly 
defined as jobs that involve protecting wildlife, reducing 
pollution, or reducing energy usage. In the nation's energy 
sector, green jobs are concentrated in two areas: energy 
efficiency and renewable energy.
    The energy efficiency sector generally involves 
retrofitting residential and commercial buildings to use less 
energy and the manufacture of products that save energy. This 
sector will likely provide the greatest number of green jobs, 
at least in the short term.
    The renewable energy sector involves creating, installing, 
and maintaining technologies that generate energy from 
resources that are naturally replenished, such as wind and 
solar. Our findings show that the majority of green jobs in the 
energy sector will not be new occupations immediately, but will 
be traditional occupations that may require an additional layer 
of green skills and knowledge.
    Second, what drives growth in green jobs? There are three 
primary drivers: technological advances and the pace of those 
advances, economic conditions and energy prices, and the 
presence of federal and state energy policy that can drive 
investment or demands.
    Third, are the green job numbers a myth? Green jobs are 
extremely difficult to quantify. At present, there is no 
clearly defined federal government standard for counting green 
jobs and an unclear consensus on what is a green job.
    However, if you look at the energy industry, we know that 
the majority of green energy jobs are currently found in the 
energy efficiency sector. According to the American Solar 
Energy Society, in 2007 95 percent of all green energy jobs 
were in the energy efficiency sector, and only about 5 percent 
in the renewable energy sector. While today's renewable energy 
job numbers appear to be smaller, it is predicted that they 
will grow faster, mostly because of public policy efforts to 
increase the degree of the nation's energy supply that comes 
from renewable sources.
    Fourth, where will the green jobs be located? Well, since 
the majority of energy efficiency jobs are in the retrofitting 
of buildings, these types of jobs will be widespread across 
most states. However, the demand for renewable energy jobs and 
skills will vary by state. Our findings show that four critical 
factors play a role in the demand for green energy workers, 
especially in the renewable energy area: the strength and 
characteristics of any area's workforce, the natural resources 
and geography of a particular area, the depth and breadth of an 
area's industrial infrastructure, and the level and nature of 
state, regional, and local energy policy and leadership to 
affect change.
    What skills are green energy employers seeking? As I 
mentioned earlier, green energy jobs will most likely be 
traditional jobs, many of which require a new green layer of 
skills and knowledge. Employers that we spoke to tell us that 
workers will need to have what they always need to have--
skills. That is basic academic and workplace readiness skills 
as well as traditional job-specific skills and credentials. A 
carpenter or plumber needs first and foremost to know how to be 
a carpenter or plumber. Eventually workers will need green job-
specific skills and knowledge and credentials as the industry 
grows and matures.
    Finally, what can the nation's workforce and education 
systems do to prepare workers for green jobs? Well, number one, 
talk and listen to employers. They will be the best source for 
information on the type of skills and information needed for a 
job.
    Track those drivers of energy sector job growth: 
technology, economic conditions, and public policy. They will 
dictate the pace and scale of jobs and where new occupations 
are emerging.
    Coordinate education and training with economic development 
efforts and the emerging workforce needs of employers by 
creating a green job talent network. And finally, focus 
education and training efforts on providing workers with skills 
to meet the as-they-emerge industry-determined needs, develop 
pathways for workers, and look to complement, not duplicate, 
already existing employer-and labor union-led training efforts.
    Thank you for this opportunity.
    [The statement of Ms. Krepcio follows:]

   Prepared Statement of Kathy Krepcio, Executive Director, John J. 
 Heldrich Center for Workforce Development, Edward J. Bloustein School 
  of Planning and Public Policy, Rutgers, the State University of New 
                                 Jersey

    Good morning, Chairwoman Woolsey. My name is Kathy Krepcio and I am 
the Executive Director of the John J. Heldrich Center for Workforce 
Development at Rutgers, the State University of New Jersey. I am 
pleased to offer testimony today about preparing the nation's workforce 
for a `greener energy' economy--with a special focus on green collar 
jobs in the energy industry.
    As one of the nation's leading university-based research and policy 
centers dedicated to the American workforce, the Heldrich Center 
believes that the emergence of a ``green'' economy will lead to a new 
generation of jobs--as well as the eventual transformation of 
traditional occupations across many industry sectors.
    As the United States makes its transition to a cleaner energy 
economy, state and national policy makers are working to identify the 
specific occupations and skills that workers must have to succeed in 
this emerging energy revolution. To assist them, Heldrich Center 
researchers recently produced a research brief to assist educators and 
others interested in training ``green'' workers in the skills employers 
are and will increasingly demand. This report, entitled Preparing the 
Workforce for a Green Jobs Economy, defines the types of entry level 
and middle-income ``green jobs'' that are most likely to grow, 
describes the factors driving the anticipated growth in different 
industries, and outlines strategies for training a 21st Century 
workforce with these relevant skills.
What is a Green Job?
    Green jobs can be broadly defined as jobs that involve protecting 
wildlife or ecosystems, reducing pollution or waste, or reducing energy 
usage and lowering carbon emissions. Our research focused on the 
nation's energy industry, and in that vital sector green jobs will be 
concentrated in the energy efficiency (EE) sector, with growth also 
expected in the renewable energy (RE) sector.
    The Energy Efficiency sector generally involves retrofitting 
residential and commercial buildings to use less energy, as well as 
developing and manufacturing products that save energy. Weatherization 
and building retrofits will likely provide the greatest number of green 
jobs--at least in the short term. For residential weatherization, most 
jobs require low- to moderate-skills preparation. In commercial and 
industrial retrofitting, there is a wider range of educational and 
training needs. Common occupations in these areas include:
    <bullet> Electricians
    <bullet> Building Weatherization Occupations
    <bullet> Heating/Air Conditioning Installers
    <bullet> Electrical Engineers
    <bullet> Carpenters, Carpenter Helpers
    <bullet> Mechanical Engineers
    <bullet> Construction Equipment Operators
    <bullet> Cogeneration Construction and Operation
    <bullet> Roofers
    <bullet> Measurement and Verification Technicians
    <bullet> Insulation Workers
    <bullet> Energy Management Analysts
    <bullet> Construction Managers
    <bullet> Building Inspectors, Auditors
    The Renewable Energy sector focuses on creating, installing, and 
maintaining technologies that generate energy from resources that are 
naturally replenished and generally do not emit the greenhouse gasses 
that contribute to global warming. Renewable Energies include wind, 
solar, geothermal, and hydropower.
    While the majority of Renewable Energy occupations are now in 
manufacturing, there are also jobs associated with heavy construction 
and installation, and operations and maintenance. For example, in the 
wind energy sector, the occupations vary from entry-level construction 
laborers to advanced engineers. Sheet metal workers are needed in the 
production of wind turbines, and construction workers will build 
cogeneration units and work on upgrading the nation's electric grid.
    For example, common occupations in wind energy include:
    <bullet> Environmental, Energy Engineers
    <bullet> Construction Equipment Operators
    <bullet> Iron and Steel Workers
    <bullet> Industrial Truck Drivers
    <bullet> Sheet Metal Workers
    <bullet> Industrial Production Managers
    <bullet> Machinists, Millwrights
    <bullet> Operators, Maintenance Technicians
    <bullet> Electrical Equipment Assemblers
    There is a widespread misconception that the vast majority of 
``green jobs'' will be in the Renewable Energy area. In fact, most of 
the immediate job opportunities will be created in the Energy 
Efficiency sector as homes and businesses are retrofitted to use less 
energy, and as manufacturers develop new energy-saving products. In 
terms of money saved, Energy Efficiency may be the cheapest 
`alternative fuel' around.
    A key point is that many Americans do not realize that most 
immediate green job openings will not be ``new'' occupations, but 
rather traditional occupations, some with a new layer of ``green'' 
skills, knowledge, and credentials. These green job workers will 
include construction workers, cost estimators, financial analysts, 
auditors, computer technicians, accountants, manufacturing workers, 
truck drivers, salespersons, scientists, engineers, and many others--as 
long as their jobs have something to do with energy conservation or 
increasing the supply of renewable or clean energy sources.
    And, the main distinction between jobs in the Energy Efficiency and 
Renewable Energy sectors that is important for workforce and education 
professionals to understand has to do with the mix of occupations and 
employers in these sectors, and the green skills and certifications 
workers need to obtain these various jobs.\1\
    While green job occupations will be found across all industries and 
at all levels of education, the largest number of green jobs in the 
nation's energy sector will be in occupations that require an 
apprenticeship, professional certificate, or one to two years of 
postsecondary education. For renewable and sustainable energy 
occupations, the distribution of required education and training 
preparation is more varied, and specific to the type of renewable 
energy.
    As you know, the development of green jobs is receiving a 
significant boost from passage of the new Federal stimulus bill, the 
American Recovery and Reinvestment Act. Although the general direction 
of ``green job'' growth is clear, our research report Preparing the 
Workforce for a Green Jobs Economy stresses that the specific hiring 
and training needs of clean energy employers will vary significantly 
from state to state.
    A significant challenge for education and training providers will 
be how to best prepare jobseekers with the right skills for the right 
jobs at the right time that meets emerging demand for workers in real 
time. To meet this challenge of getting the balance of skilled workers 
into jobs that exist, our researchers recommend that education and 
workforce professionals work closely and collaboratively with energy 
policy makers and energy employers to track the primary drivers of job 
growth--that is, technology development, economic conditions and energy 
policy.
What Drives Growth in Green Jobs?
    To understand what fundamentally drives growth in green jobs, and 
thus where best to invest education and training dollars, it is 
important to know that transformation to a new energy economy and thus 
growth in green jobs in the United States depend on three major 
drivers:
    Technological Advances. Many energy efficiency and renewable energy 
technologies are more expensive than traditional fossil fuel 
technologies. As these technologies become less expensive, the market 
will adopt them faster. It is impossible to predict which emerging 
technology--wind, solar, hydrogen--will dominate future energy markets 
and therefore employ future workers. It is much more likely that the 
nation's energy future will be a patchwork of many different clean 
energy resources.
    Economic Conditions. Because Energy Efficiency and Renewable Energy 
technology is capital intensive, energy prices and the economy affect 
businesses' and consumers' willingness and ability to invest. Like many 
other industries, the current economic downturn has dried up credit for 
installers of renewable technologies, causing manufacturers to reduce 
their payrolls. As traditional fuel prices rose over the past few 
years, energy efficiency and renewable technologies became more 
economically viable. The decline in fuel prices lowers demand for 
alternatives.
    Federal and State Energy Policy. Clean energy incentives (such as 
tax credits, rebates, or renewable energy certificate trading programs) 
and economic development initiatives can spur private-sector 
investment, particularly for risk-averse businesses. In general, public 
policies designed with a long-term goal in mind give businesses the 
signal they need for wide-scale investment in green energy and 
technologies.
Green Job Numbers: Myth or Real Math?
    Green jobs are extremely difficult to quantify. There is no clearly 
defined federal government standard for counting green jobs, nor is 
there likely to be one, since there is no consensus today on what 
constitutes a green job.
    Today, most green energy jobs are currently found in the Energy 
Efficiency sector. According to the American Solar Energy Society, in 
2007 there were 3.75 million jobs in the Energy Efficiency area, and 
218,000 jobs or about 5% of all green energy in the Renewable Energy 
area.\2\ While today's renewable energy job numbers are smaller, it is 
predicted that they will constitute the faster growing jobs--most 
significantly because of public policy efforts to increase the degree 
of the nation's energy supply that comes from renewable sources.
    Various industry associations and research organizations, however, 
have attempted to provide estimates of green jobs in order to offer a 
better understanding of the potential magnitude of jobs in the energy 
efficiency and renewable energy areas. But, these green job growth 
projections vary widely, owing to many factors--such as the ambiguity 
of green jobs, unknowns about future economic conditions and/or the 
pace of technological advances, the degree and types of federal and 
state public policies (including stimulus dollars) and their eventual 
impact on job creation, and whether economists are calculating direct 
and/or indirect jobs (like administrative or information technology 
staff) created by the green energy industry.
    It remains to be seen if the stimulus package will create the 
promised 500,000 green jobs by the end of 2010, but it is certain that 
there will be enormous opportunities for workers with a wide range of 
education and skills. The ways in which the federal government and 
states spend the stimulus money will affect the number of jobs that are 
created by the stimulus plan, as will the pace of the public and 
private sector's uptake of key energy efficiency and renewable energy 
incentives. Again, it is important that workforce stakeholders work 
closely with industry to provide knowledge and skills training, both 
traditional and green, that will be necessary to meet the new, emerging 
demand.
Where Will the Green Jobs Be?
    Across the nation, the demand for energy efficiency jobs and 
competencies is likely to be quite similar--the majority of Energy 
Efficiency jobs are in the retrofitting of buildings.
    However, the demand for Renewable Energy jobs and skills will vary 
by state, as other factors such as workforce strengths, natural 
resources and geography, infrastructure, and policy priorities also 
play a large role in where renewable energy industry is located.
    Workforce Strengths. Since demand is fairly consistent for Energy 
Efficiency, all state or regional workforce agencies might consider 
preparing workers for retrofitting and weatherization occupations. 
Industry growth in the renewable energy sector will vary by state, with 
companies attracted to existing workforce capabilities, such as 
manufacturing skills, or states with a high number of skilled science 
and technology workers.
    Natural Resources and Geography. Solar collection capacity is 
strongest in the southwest and in states like Florida and Texas. Wind 
strength and consistency needed for large turbine installations is 
found along the coasts and in the Great Plains states. Green jobs 
related to biofuels made from feedstock will dominate in the Midwest 
and in other agricultural states. U.S. Department of Energy maps and 
data for all renewable resources across the nation are located at 
www1.eere.energy.gov/maps--data/renewable--resources. html.
    Infrastructure. In renewable energy manufacturing, a state's 
industrial capacity influences the location of alternative energy 
component manufacturers, which are more likely to locate in states with 
industrial facilities and networks already in place. And size matters: 
wind turbine blades can be up to 200 feet long and weigh 40 tons, so 
manufacturers need to locate close to where wind turbines will be 
constructed, and near water or rail, since some of the components are 
too large to transport by road.\3\
    State, Regional, and Local Policy. In the absence of centralized, 
national, long-term energy strategies, several states are leading in 
Energy Efficiency and Renewable Energy development. By early 2009, 20 
states had established various energy efficiency resource standards, 
which mandate efficiency levels through savings goals. At least 29 
states have created renewable energy portfolio standards that charge 
utilities to supply consumers with a percentage of their energy from 
renewable sources.\4\ The economic incentives attached to these energy 
targets or goals will play a powerful role in creating demand for 
workers. In addition, numerous states or regional associations have 
designated economic development initiatives for clean energy sectors.
    For example, New Jersey, while not in the Sun Belt, has the second 
highest number of solar installations behind California (over 3,500 
residential, commercial, and industrial installations) because of a 
strong rebate system put into place by policymakers to promote the 
growth of the solar industry in the state.\5\ In addition, the large 
number of flat roofs on warehouses and big box retail stores provide 
the infrastructure for capturing the sun's energy.
    Newton, Iowa is another example where geography, infrastructure, 
and economic development targets created green jobs. In November 2008, 
TPI Composites opened a 316,000 square foot wind turbine facility in 
this manufacturing town that was reeling from the loss of Maytag, which 
at one time employed one out of every five residents.\6\ As a result of 
TPI Composites' new facility, 500 green jobs were created.
What Skills and Competencies are Green Energy Employers Seeking?
    As noted earlier, green energy jobs will most likely be traditional 
jobs--construction workers, manufacturing production workers, 
accountants, scientists--many of which require a new, green layer of 
skills and knowledge.
    Employers in the Energy Efficiency and Renewable Energy sectors 
interviewed for our research stressed that that workers applying for 
green jobs first need the basic skills and traditional competencies, 
degrees, and other recognized credentials associated with a particular 
job. ``Green'' competencies, where they are necessary, must be learned 
either in tandem with or after learning the core skills associated with 
a given occupation.
    In the short term, not every green job will require particular 
green skills or certification. Manufacturing workers in a solar panel 
facility, for example, may not require anything more than the basic 
skills required of others working in advanced manufacturing 
environments. In the world of weatherization and installation and 
maintenance of Renewable Energy and Energy Efficiency technologies, 
standards for certification and training are highly variable, 
especially at the entry level. In some home weatherization programs run 
by local utilities, for example, entry-level workers may need little 
more than basic construction laborer or installation skills, such as an 
air sealer who caulks gaps in windows.
    Standards embraced by employers or mandated by funding programs, 
however, often have implications for the training and certification 
needs of workers. Workers who obtain nationally recognized credentials 
associated with common standards for jobs in the Energy Efficiency and 
Renewable Energy sectors may have a better chance at obtaining a job 
even if the job does not require it. For example, a solar panel 
installer may prefer, but not require, that installers obtain a 
nationally recognized certification, such as a Photovoltaic Installer 
Certificate from the North American Board of Certified Energy 
Practitioners. Employers are the best and most up-to-date source of 
information on which certifications and levels of education are 
required for a particular green job.
    In addition to certifications, employers stress that eventually 
broad sets of green knowledge, which cross many industries and 
occupations, will become increasingly important for job advancement, 
and may be considered basic knowledge in the future clean energy 
economy. These green concepts include:
    <bullet> Sustainability. How ecological systems work and the 
conditions under which they can function well now and into the future, 
including a basic understanding of the interconnectedness of human 
activity and the natural world, the effects of energy consumption, 
waste disposal, and the effects chemicals and other manmade substances 
have on natural systems--from waterways to air quality and climate.
    <bullet> Green Technologies, Standards, and Processes. Awareness of 
the policies, nationally recognized standards, equipment, and work 
practices that mitigate the environmental impacts of human activity, 
including energy use. From solar panels, to tax incentives, to 
weatherization and green manufacturing standards, many aspects of 
business and government are changing to enable the transition to a 
clean energy economy.
    <bullet> Life Cycle Analysis. The environmental and economic 
effects of a product at every stage of its existence, from extraction 
of materials through production to disposal and beyond. According to 
employers, life cycle analysis is of great usefulness in showing the 
benefits of using green technologies to consumers.
What Can the Nation's Workforce and Education Systems Do to Prepare 
        Workers for Green Jobs in the Emerging Energy Economy?
    The Energy Efficiency and Renewable Energy sectors are positioned 
to have a long-term transformative effect on the nation's economy. If 
the promise of the green energy economy holds true, the nation will 
experience benefits in both combating climate change and helping to 
restore economic strength and employ a large number of workers in the 
United States.
    In order to respond to the very complex and evolving energy 
industry needs, stakeholders must develop a coordinated, flexible 
workforce development infrastructure. Such systems, which formalize 
communication networks, articulation agreements, and other linkages 
among key stakeholders, will also position states and programs to be 
competitive for federal and foundation grants. To be effective, state 
agencies and other key stakeholders should explore the following 
strategies:
Use Federal and State Public Policy as a Roadmap
    Develop ``green jobs policy experts'' in educational institutions 
and workforce development organizations who can create partnerships 
with employers, state environmental, energy, and economic development 
leaders to understand policy developments and to discern their likely 
effects on job growth in key areas of the energy economy and to 
identify potential employers. The Database of State Incentives for 
Renewable Energy (www.dsireusa.org) provides detailed information on 
state renewable energy initiatives and provides a good starting point.
Build Partnerships with Employers and Labor Unions
    Establish a green energy advisory council with the leaders of 
companies, utilities, and labor unions to create a strategic venue for 
interaction and an ongoing feedback mechanism that ensures training 
programs and curricula are driven by industry's priority workforce 
needs. Employers can identify demand for certifications, hiring and 
recruitment policies, and specific occupations, as well as which jobs 
will draw from labor unions.
    Since labor unions and employers often provide significant amounts 
of training themselves, they can also provide needed guidance on key 
gaps that exist within the education and training system that need to 
be filled. This will assist states to build training systems that build 
upon and support employer and union-led efforts rather than coming into 
competition with them.
Develop a Green Jobs Workforce Collaborative or Green Jobs Talent 
        Network
    Encourage green job growth in states and effectively meet employer 
demand as it evolves, through forming a voluntary collaboration network 
around the green energy industry. This sector approach creates a 
coalition of educational institutions (from high school to university), 
workforce and economic development system stakeholders, labor and 
community-based organizations, green energy companies, and industry 
associations in order to provide and support a trained and job-ready 
workforce for green jobs.
    The Los Angeles Infrastructure and Sustainable Jobs Collaborative 
offers an example of a talent network approach, bringing together 
public and private partners to provide a seamless training and 
education infrastructure for low-income residents to be trained for 
livable wage occupations within the utility industry. Partners include 
utilities, labor unions, high schools and vocational-technical schools, 
community colleges, and universities.
    Through research and the development of the New Jersey TLD Talent 
Network (a collaborative workforce model for the transportation, 
logistics, and distribution industry), the John J. Heldrich Center for 
Workforce Development has identified key elements of effective talent 
networks. These include:
    <bullet> Identification of Assets. Create an inventory of the 
public and private assets in states or regions to identify gaps and 
eliminate overlap. Map out existing training opportunities, including 
programs managed by employers, unions, community-based organizations, 
and educational institutions. Chart the funding streams available 
through various private and public entities to support green job growth 
and training efforts and look beyond traditional funding sources.
    <bullet> Cultivation of Career Pathways. Support low-skilled, low-
income workers to move into higher-skilled jobs that pay better wages 
through education and green jobs training. Ensure that training results 
in a nationally recognized credential. In addition, states should focus 
on accreditation of training programs and on creating ``stackable'' 
credentials through articulation agreements. For example, Los Angeles 
developed the Green Careers Training Initiative (GCTI) in association 
with the Apollo Alliance and the city's Green Retrofits program. Among 
GCTI's goals are to create ``green career ladders'' in order to link 
low-income residents with union apprenticeship and community college 
training programs, as well as provide incumbent worker training. Such 
programs can provide means for worker advancement as well as lifelong 
learning opportunities.
    <bullet> Alignment of Green Jobs Workforce Training Efforts with 
Economic Development Initiatives. Establish a connection between 
attracting green energy businesses and customized training and hiring 
and recruitment systems. In Georgia, Suniva, Inc. built a new 
manufacturing facility for silicon solar cells. Through a partnership 
with Gwinnett Technical College and Georgia Quick Start, the state's 
free, customized workforce training program, Suniva is ramping up to 
its projected workforce of 100 jobs.
    <bullet> No Duplication of Training or Curricula. Ensure that 
workers in multiple locations have access to training that is relevant 
to employers by developing mechanisms to share curricula that result in 
credentials that are in high demand by employers and are not otherwise 
available. Consider developing centralized training centers that 
provide students with the opportunity to get hands-on training using 
state-of-the art equipment, thus potentially conserving costs. For 
example, Florida's Solar Energy Center receives $3 million in operating 
funds from the University of Central Florida and provides continuing 
education programs in alternative energy technologies through a 
partnership of universities, community colleges, technical institutes, 
workforce agencies, and industries. Besides solar energy training, 
hands-on classes in home energy rater training, fuel cell technology, 
and disaster relief are taught at the center.
Conclusion
    The Energy Efficiency and Renewable Energy industries have enormous 
potential to create new business and job opportunities for millions of 
American workers. The American Recovery and Reinvestment Act, the 
steady movement toward a clean energy economy, and the rising price of 
traditional fossil fuels are several of many factors that will 
determine how many jobs are ultimately produced in the green economy.
    States and communities with innovative energy policies and 
coordinated workforce development systems aligned with employers will 
emerge as leaders in this new green economy. Stakeholders who wish to 
partake in the federal stimulus training funds for green jobs will need 
to be committed to preparing their workforce by building well 
coordinated, flexible strategic partnerships among industry, labor 
unions, community based organizations and educators.
    All and all, green jobs employment and training efforts will be 
better poised to succeed by:
    1. Tracking the effects of key drivers of energy sector job 
growth--technology, economic conditions, and public policy--on the 
real-time hiring needs of employers.
    2. Creating a green jobs talent network to coordinate education and 
training with economic development efforts and the emerging workforce 
needs of employers.
    3. Focusing education and training efforts on providing industry-
recognized credentials where needed, developing career pathways for 
workers, and complementing--not duplicating or circumventing--employer 
and labor union-led training efforts.
    We believe that taking these steps will enable state, regional, 
and/or local green jobs initiatives to build a more responsive, 
sustainable, flexible and coordinated workforce education 
infrastructure. An effective green jobs workforce strategy will produce 
multiple benefits, including ensuring that training leads workers to 
real job opportunities, helping businesses to be more competitive, and 
garnering federal green jobs training grants.
    Thank you for this opportunity to testify and share these research 
findings from the Heldrich Center for Workforce Development.
    Endnotes
    1. Kate Galbraith, ``Dark Days for Green Energy,'' The New York 
Times, February 3, 2009.
    2. Management Information Services, Inc. and American Solar Energy 
Society, as referenced in Roger H. Bezdek, ``Green Collar Jobs in the 
U.S. and Colorado: Economic Drivers for the 21st Century'' (Boulder, 
CO: American Solar Energy Society, Inc., 2009) (accessed February 19, 
2009 at www.ases.org/images/stories/ASES/pdfs/CO--Jobs--Final--Report--
December2008.pdf).
    3. Jason Walsh and Sarah White, ``Greener Pathways: Jobs and 
Workforce Development in the Clean Energy Economy.''
    4. Ibid.
    5. James O'Neill, ``New Jersey's Largest Solar Field Planned,'' 
NorthJersey.com, September 25,2008 (accessed at: www.northjersey. com/
environment/environmentnews/NJs--largest--solar--energy--field--
planned.html).
    6. Dean Reynolds, ``Town Reinvents Self with Wind Power'', CBS 
News, November 2008 (accessed at www.cbsnews. com/stores/2008/11/21/
eveningnews/ main4626116.shtml).
                                 ______
                                 
    [Additional submission of Ms. Krepcio follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairwoman Woolsey. Thank you very much.
    Before we proceed on to the questions, I would like to 
enter a written statement by Raymond Uhalde, senior advisor to 
the secretary of labor at the U.S. Department of Labor, and it 
is just his input into this Committee, into this hearing. 
Without objection, we will include this in our record.
    [The statement of Mr. Uhalde follows:]

    Prepared Statement of Raymond J. Uhalde, Senior Advisor to the 
              Secretary of Labor, U.S. Department of Labor

    Thank you for the opportunity to discuss the role of green jobs in 
our country's economic recovery.
    In this statement, I will provide an overview of how Secretary of 
Labor Hilda L. Solis has deployed, and will deploy in the coming 
months, the funding made available to the Department under the American 
Recovery and Reinvestment Act (Recovery Act) to promote green jobs and 
the green economy.
    The Recovery Act, signed by President Obama on February 17, 2009, 
is the most significant single payment our Nation has ever made to 
ensure our future economic success. The Recovery Act will enable the 
repair and improvement of the country's infrastructure, fund innovative 
research and development initiatives, create job opportunities for 
Americans, and propel the growth of ``green jobs''. This landmark 
legislation will put us on a course toward economic recovery and 
growth.
    While there is considerable discussion about the role of green jobs 
in the economic recovery, there is not yet an agreed upon definition of 
green jobs. The provisions of Title X--Green Jobs of the Energy 
Independence and Security Act of 2007 set forth one definition that 
includes a wide array of industry sectors. These occupations range from 
construction and skilled trade work retrofitting buildings for energy 
efficiency to manufacturing work implementing sustainable processes, as 
well as jobs involving renewable energy installation and maintenance, 
such as building and servicing wind turbines.
    The investment in green jobs will not only help to re-start the 
economy and put Americans back to work, but will also help make America 
more energy independent. The investment in our Nation's clean energy 
future will not only secure America's energy supply, but will do so in 
a way that promotes economic stability and the advancement of all of 
our communities. For instance, many green jobs are likely to be in the 
construction trades, and these jobs tend to pay above averages wages. 
The May 2007 National Occupational Employment and Wage Estimates 
published by the Bureau of Labor Statistics (BLS) indicate that 
construction and extraction occupations pay a median hourly rate of 
$17.57 as against $15.10 for all occupations. In addition, data from 
the Current Population Survey published by BLS indicates that 21% of 
construction workers were represented by a union in 2008. Therefore, we 
can expect that many green jobs will pay 10% to 20% better than other 
jobs and will be unionized. These are jobs that will provide economic 
security for our middle-class families while reducing our nation's 
energy dependence.
    BLS Commissioner Keith Hall testified at the House Appropriations 
Subcommittee on Labor, Health and Human Services, Education and Related 
Agencies on March 25, 2009, about the effort to measure green jobs. In 
his testimony, Commissioner Hall noted several challenges in measuring 
green jobs: 1) green activities often cut across industries and 
occupations, or 2) green jobs account for a subset of activity within 
an individual industry and occupational category. These challenges are 
present whenever we try to measure jobs in an emerging sector of the 
economy, such as information technology and biotechnology. However, 
there are green jobs that can be easily measured in categories such as 
the production of renewable electric power. BLS is currently developing 
approaches to measure green jobs, including surveying workplaces in 
industries where green activity is expected to occur to identify both 
the extent to which they are performing green activities and the 
occupations of the employees who are doing such work.
    While BLS is working on ways to measure green jobs, billions of 
dollars have already been distributed across the Federal government to 
the states for infrastructure investments and research and development 
investments that that will create opportunities for green job growth. 
For its part, the Department has already made available $3.47 billion 
of the Recovery Act to support workforce investment activities. Such 
activities include retraining dislocated workers, summer employment for 
youth, and community service employment for low-income seniors. The 
Recovery Act also makes available $250 million in funds for Job Corps 
projects. Future construction and repair of Job Corps facilities will 
incorporate green technologies. Job Corps will also develop and 
implement green jobs training into their curricula at all Centers.
    The Department of Labor consistently invests in America's workforce 
by supporting training and re-training of workers, and providing 
assistance in getting them jobs. As we work to expeditiously and 
effectively carry out our responsibilities under the Recovery Act, the 
Department and other Federal agencies are collaborating to identify 
effective green training approaches and opportunities.
    The Department and other Federal agencies have already begun to 
coordinate their work to strategically implement programs that ensure 
the connection between investments in infrastructure and research and 
development to job training and worker placement. For example, during a 
recent visit to the Community College of Allegheny County Secretary of 
Labor Solis and Secretary of Energy Steven Chu recently announced a 
major new investment to create green jobs in Pittsburgh and other 
Pennsylvania communities. With these types of partnerships, we are 
building both a stronger economy and a secure, clean energy supply.
    Secretary Solis' primary focus in administering the Department's 
Recovery Act initiatives will be to ensure that green jobs workforce 
training is an effective and comprehensive effort to move America's 
workforce and economy forward. The greening of our economy will bring 
significant changes to the American workplace and will require the 
American workforce to acquire new and different skills.
    The Department of Labor is developing plans for use of the $500 
million provided in the Recovery Act for research and job training 
projects that prepare workers for careers in energy efficiency and 
renewable energy, and will soon issue solicitations for grant 
applications. These grants will provide an infusion of workforce 
training funding that will help ensure there is a qualified American 
workforce to meet the needs of our country's expanding green 
industries. The Department of Labor will focus on engaging with 
communities, writing guidance, evaluating grant applications and 
leveraging funds so that we can provide grants in an efficient and 
effective way and impact the communities most in need.
    The Department will look for ways to make the workforce investment 
system responsive to the labor market demands for workers in green 
industries. In fact, the Department recently issued guidance to states 
to help implement the job training provisions of the Recovery Act, 
noting that the energy efficiency and renewable energy industries offer 
workers new opportunities that may require additional training and 
certification. Through the Recovery Act, a number of other Federal 
programs will receive large investments in programs and projects that 
could create green jobs. These include investments in renewable energy 
infrastructure, energy-efficiency home retrofitting, biofuel 
development, and advanced drive train/vehicle development and 
manufacturing. As states receive Recovery Act funding and implement 
training and reemployment strategies, the Department encourages states 
to recognize opportunities to prepare workers for green jobs related to 
other sources of Federal funding. The Department has also encouraged 
states to expand existing training programs, such as registered 
apprenticeship programs that have the potential to prepare workers for 
careers in the renewable energy sectors and for other green jobs. 
Finally, the Department's guidance has encouraged states to identify 
regional and local environmental resources, businesses, and pre-
apprenticeship programs promoting green jobs and products to provide 
youth summer work experiences that prepare them to compete in a 
``green'' economy. With green jobs workforce training, we will ensure 
that American workers have the needed experience and expertise to 
succeed in the green economy.
    The Department of Labor is directing its efforts and resources to 
assist American workers in acquiring the skills they will need to 
access the new job opportunities that will become available in the 
green economy, thus ensuring that employers in existing and emerging 
high-growth industries will have the skilled and innovative workforce. 
We must ensure that there is an effective pipeline for training which 
allows people to have both short-term training opportunities and the 
opportunity to advance into higher-skilled jobs. The workforce 
investment through the Recovery Act will help enable our economic 
recovery, promote future economic growth, and advance shared prosperity 
for all Americans.
                                 ______
                                 
    Chairwoman Woolsey. So, thank you all. You have given us 
way too much to think about. My head is spinning, and--but I 
keep getting back to two main questions that, assuming that we 
know that we are going to have green jobs, green technology, 
because that is the future of the United States of America, it 
is the industry of our future, and it will include workers, 
from inventors and scientists, and the developers and the 
producers, and then the installers. I mean, we have--it is 
everybody. It is every place.
    So one of my main concerns would be that some critics of 
green jobs, that when we talk about green jobs say that they 
are only entry-level jobs, they won't do that much for 
stimulating our economy--but I disagree with that--but I would 
like to hear your--what you think about that. I would like you 
to tell me where you think green job training will take place 
and how we get the entry-level green job worker--give them 
their promotion opportunities, how they can--we can prevent 
them from being in dead end jobs.
    So some of that, I think, Dr. Roy, you would be--you are 
experiencing that with or without green jobs, so how would you 
continue this?
    Mr. Roy. I would like to address one of those issues. 
Certainly at my company, Serious Materials, we have--I will get 
back to you on the specific numbers, but I believe we have a 
couple dozen Ph.D.s, scientists, and engineers that are working 
on our new technologies all the time. Now, those are really 
high-end--very high-end jobs.
    It goes all the way up through our chain, down to the 
installers; you have system installers all the way up to Ph.D. 
engineers. You also have quite advanced manufacturing and 
logistics analysis going on all the time. So these aren't just 
entry-level jobs; some of these are quite high-end. That is how 
we get the technology that becomes cost-effective and 
attractive to deploy.
    Now, with respect to the downstream: in installation, 
certainly it is important. For example, with windows you have a 
two-person crew if you want to be logistically effective. You 
have a two-person crew that goes through, changes a lot of 
windows. One of those has to be a skilled windows installer 
with proper training, proper certification. The other one is an 
assistant, learning, quickly becoming a highly-skilled 
installer.
    It is a very interesting track for that second person, and 
we are not going to run out of opportunities for--in that 
narrow space of windows installers. There are something like 30 
million low-income households that are highly inefficient for 
which there are cost-effective energy efficiency upgrades 
waiting to be done.
    Chairwoman Woolsey. All right.
    Ms. Krepcio?
    Ms. Krepcio. As I had pointed out, I mean, the range of 
jobs are going to be anywhere, as I said, from entry-level to 
middle-skill, to high-level jobs. And as we know, they will all 
evolve as the industry evolves. I mean, certainly, you know, 
one of the things that we at the Heldrich Center are very 
concerned about is, entry-level workers get put on pathways, so 
if they start off as somebody who is helping to retrofit and 
building and caulking a window, you don't need a lot of skills 
to be able to do that, but you do need to have good workplace 
skills and basic skills, that eventually they might be 
participating in pre-apprenticeship training programs so they 
can become licensed plumbers or carpenters and participate in 
that, and eventually maybe they want to become a contractor. So 
there are certain pathways and certain industries in energy 
efficiency, and clearly there is going to be the need for 
scientists and technologists to be able to produce the new 
technologies of the future.
    Chairwoman Woolsey. Right.
    Mr. Ringo?
    Mr. Ringo. Thank you very much, Madam Chair.
    At Apollo, we have really focused on a level playing field, 
that those that are engaged in these jobs are from businesses 
and individuals who might invest in green technologies or get 
involved in owning businesses in green, but also those people 
who are unemployed, laid off out of our manufacturing 
industries, and even the poor, those people who daily must 
begin their day having to make a decision after whether they 
should purchase a gallon of gas or a gallon of milk.
    I was in Arkansas last week, Madam Chair, and there are 
400,000 homes that are in line to be weatherized through the 
stimulus money that is going to be available in the state of 
Arkansas. But prior to weatherization of those homes, mainly 
poor people, there must be energy audits done of each home. Of 
the 400,000 homes that are awaiting weatherization in Arkansas, 
there are only five certified energy auditors in the entire 
state. That is a green job.
    Chairwoman Woolsey. That would be.
    Ms. Sherman, could you add a little bit to----
    Ms. Sherman. Yes.
    Chairwoman Woolsey. My time is up, and I am going to--I 
will be back. We will have a second round.
    Congressman Price?
    Dr. Price. Thank you, Madam Chair. Before I begin I would 
like to ask unanimous consent to include in the record a letter 
that all members have received from the Associated Builders and 
Contractors regarding this issue.
    Chairwoman Woolsey. Without objection.
    [The information follows:]

                 Associated Builders and Contractors, Inc.,
                                                    March 31, 2009.
Hon. Lynn Woolsey, Chairwoman; Hon. Tom Price, Ranking Member,
Subcommittee on Workforce Protections, House Education and Labor 
        Committee, Washington, DC 20515.
    Dear Chairwoman Woolsey and Ranking Member Price: On behalf of 
Associated Builders and Contractors (ABC) and its 25,000 contractors, 
subcontractors, material suppliers and construction related firms 
across the nation, I am writing to thank you for holding today's 
hearing on ``Green Jobs and Their Role in Our Economic Recovery.'' ABC 
member companies have been at the forefront of green construction since 
before this terminology came into use. However, we are greatly 
concerned with recent statutory language which would prohibit over 84% 
of the construction industry from accessing federal dollars to train 
construction workers in green fields of works and strongly urge you to 
maintain open access to these important funds.
    Open shop contractors, which make up over 84 % of the private 
construction industry, recognize the growing market force of green 
buildings and are adapting their training methods to prepare workers 
for this ever expanding segment of the construction industry. In fact, 
for the past several decades millions of square feet of ``green'' and 
LEED certified building space has already been built using open shop 
contractors and the specialized skills of their workforce.
    ABC chapters and member companies are actively engaged in training 
workers in a wide variety of skilled occupations and are constantly 
striving to keep pace with technology and innovation in order to make 
certain America has the skilled workforce it deserves, and that all 
American workers, regardless of union affiliation, enjoy equal 
opportunity of access to critical job training. However, the continued 
participation of open shop contractors, and the job opportunities for 
over 84% of the construction workforce they employ, in the booming 
green building market is threatened by the efforts of many in 
Washington, D.C. to exclude nonunion companies and training providers 
from participating in new government funded green jobs training 
programs.
    The Green Jobs Act, enacted as part of the ``Energy Independence 
and Security Act of 2007'' which was signed into law in December 2007, 
establishes National Energy Training Partnership Grants to fund 
training programs targeted at creating an efficient energy and 
renewable energy skilled workforce. Specifically, the Green Jobs Act 
would require any entity applying for these grants to partner with 
organized labor. The reality is that this language would bar the 
numerous open shop training programs from receiving this grant funding.
    Organized labor makes up just 16% of the private construction 
workforce and likely represents a similar amount of work in the green 
building market. Given the desire to see a continued increase in the 
use of green building and green technology, it seems that limiting the 
ability to participate in green training to such a small percentage of 
the construction industry would make this growth difficult. If the 
green building market is going to continue to expand in the coming 
years as some groups predict, the participation of the open shop will 
be a crucial factor in ensuring there are enough skilled workers to 
meet the demand.
    To that end, ABC, along with many other construction and business 
groups, strongly supports the ``Green Jobs Improvement Act'' soon to be 
introduced by Congressman John Kline which would amend the Workforce 
Investment Act to allow both union and open shop training providers 
access to the federally funded energy efficiency and renewable energy 
worker training programs. This bill would give all workers the 
opportunity to train in the ever increasing field of green construction 
and would not block certain training providers access simply because 
they choose not to be affiliated with organized labor.
    The advances in the technology and skill involved in green 
building, and the benefits of their use, is indeed a welcome trend for 
contractors, skilled workers and the end user. It is our view that the 
most efficient path to encouraging this continued growth of this sector 
is by giving all training providers, regardless of union affiliation, 
access to federal training programs so that the greatest numbers of 
workers can be trained in green jobs. In today's tough economic times, 
especially in the construction industry, Members of Congress have a 
responsibility to provide all workers with training opportunities paid 
for by their tax dollars.
    Again, thank you for your work, and we look forward to your 
continued efforts to promote green building opportunities for all 
contractors.

                        Brewster B. Bevis, Senior Director,
          Legislative Affairs, Associated Builders and Contractors.
                                 ______
                                 
    [Additional submission of Mr. Price follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [``7 Myths About Green Jobs,'' University of Illinois 
College of Law, by William T. Bogart, et al, may be accessed at 
the following Internet address:]

      http://papers.ssrn.com/sol3/papers.cfm?abstract--id=1357440

                                 ______
                                 
    Dr. Price. Thank you.
    I want to thank the witnesses for their testimony and their 
contributions to this issue. I think the vision and the goal of 
all of us is the same: We all want a clean environment, and we 
want to preserve and protect and increase the number of jobs. I 
would suggest, however, that all Americans are getting more and 
more suspicious of governmental activity and the intrusion of 
government into the private sector. And certainly that 
suspicion has been increased over the past couple of weeks.
    Your testimony resulted in much discussion about the 
benefits of green jobs, and I think we can all agree, that is 
great to hear.
    Dr. Bogart, I was struck by your comments regarding the 
lack of transparency and the different definitions of what a 
green job is and how depending on how you define that it allows 
for the government to pick winners and losers. Would you mind 
commenting on that, and also, what you would suggest as we try 
to move forward in properly defining green jobs?
    Dr. Bogart. Thank you. Yes. Actually, that is one of the 
difficulties, and it was one of the reasons we dug into this 
research, is that various groups define green jobs very 
differently and count different technologies as green, and the 
concern is that that lack of transparency will lead to money 
being wasted as people just try to define anything as being 
green. Again, to hearken back to events of last year, all of a 
sudden everybody wanted to be a bank, and I think that if we 
aren't careful, every job turns into a green job.
    Now, that said, there is a sense in which the increasing 
price of energy over time does turn every job into a green job 
because businesses and consumers have an incentive to economize 
on that more expensive energy by finding new technology and by 
buying energy efficient products, and we should encourage all 
of those types of activities.
    Dr. Price. You mentioned the processes by which one might 
define a green job. Do you have a working definition that you 
use for green jobs?
    Dr. Bogart. Not a short one. I find it very hard to find 
one that is that short----
    Dr. Price. That is clearly the challenge that we have.
    You also brought out the interesting point of a net 
increase in jobs, and I wondered if you might care to comment a 
little more on losses of jobs as a consequence of decisions 
that might be made.
    Dr. Bogart. Yes, sir. Thank you.
    There are two ways to see this. One, again, is if we 
produce the same amount of energy but we change sources, the 
people that were previously employed producing energy, let us 
say, from oil, coal, nuclear, will lose jobs as jobs are gained 
in solar, wind, or biomass. The other way to see it, and this 
is what we are seeing in the European experience, most recently 
with the report from King Juan Carlos University in Spain, is 
that higher energy prices drive businesses out of the country, 
and low energy prices in much of the United States has been an 
advantage for various types of producers, and also keeping 
consumer prices low, which is important for our 
competitiveness.
    Dr. Price. Thank you.
    Dr. Wolfe, I want to thank you for your testimony as well, 
and as a strong supporter of expansion of nuclear energy, I 
think that many nations of the world have proven that that is 
indeed a responsible way in which to proceed. I wonder if you 
might comment on the difference between the sustainable and 
renewable energy and how both of those might fit into green 
jobs?
    Dr. Wolfe. Yes. I don't mean to be provocative, but I have 
a literal problem with the word ``renewable.'' Frankly, no 
energy is renewable. The laws of thermodynamics say we can't 
create or destroy energy. We can change its form; we can, you 
know, recharge a battery; we can do things like we can convert 
from potential to kinetic and kinetic to potential energy; but 
we can't make energy.
    And so with that semantics issue aside, I view the green 
energies as being those that don't produce pollution, that 
don't produce byproducts that are harmful to human health, and 
that we encourage an energy source that is sustainable--that 
word I am okay with; it means we can do it for a long, long 
time without fear of running out of it or having someone hold 
us hostage because we don't have it. So I prefer words like 
sustainable to describe the nature of the jobs, because renewal 
is technically not correct.
    But realizing that it is well-established and been used for 
years and years and years, the problem is defining even 
renewable. You know, what is that? There are a number of 
applications of ``renewable energy,'' that I don't think are 
environmentally-friendly. I personally don't think that using 
5,000 square miles of biomass to be the equivalent of one 
nuclear power plant is being environmentally-friendly. 
Likewise, I have issues with wind and solar in that regard; the 
land-use issues are significant.
    Dr. Price. I thank you for your comments, and as the 
chairwoman said, we will be coming around for a second round of 
questions.
    Chairwoman Woolsey. We will. Thank you.
    Congressman Sablan?
    Mr. Sablan. Thank you, Madam Chair. And thank you for 
having this hearing today.
    Just a very simple question: Ms. Krepcio, help me 
understand this. A plumber, a plumber, a person who is a 
plumber who gets trained to now retrofit pipes and things for 
solar power, or just--that would be a green job, in your 
opinion?
    Ms. Krepcio. Well, you know, it really does depend. Because 
right now, would you call a plumber who is installing a low-
flush toilet a green job? I am not quite sure that I would call 
it a green job. But eventually, as the industry matures, there 
may be a green type of plumber.
    I mean, I sort of liken this to the I.T. industry. Could we 
have, when the I.T. industry and computers first emerged, have 
conceived of a chief technology officer or a network 
administrator before those types of technologies existed? And I 
think that is the same thing that we are struggling with right 
now, is these kinds of definitions, which I said right at the 
beginning, you know, green jobs will be really just traditional 
jobs of which someone is going to now install insulation that 
they might have ever installed, or they are now retrofitting 
buildings with Energy Star appliances.
    Mr. Sablan. Thank you.
    Dr. Wolfe, in your testimony, you said you call nuclear 
energy the cleanest, safest source of energy. Is it really 
safe? Is that why people don't want it in their backyards? I am 
from the islands; I have never seen a nuclear plant--power 
plant--that is why I am asking you, sir.
    Dr. Wolfe. Yes. Well, you know, one of the popular things 
that you read in the media is that we ``have to make nuclear 
safe if we are going to use it.'' I don't know what else we can 
do. We have operated for 50 years and never had a fatality in 
generating commercial nuclear power in this country. There is 
no other industry of this magnitude that can claim anything 
like that. Even the wind industry in Europe has had 14 deaths 
to the public from, you know----
    Mr. Sablan. Thank you.
    Dr. Wolfe [continuing]. Windmills flying off or something. 
So----
    Mr. Sablan. Well, thank you--my time, I only have 5 
minutes. But it is not renewable, is it?
    Dr. Wolfe. It is quite sustainable.
    Mr. Sablan. My question is, it is not renewable?
    Dr. Wolfe. No. I just said a few moments ago that none of 
these technologies are renewable. They are, depending upon how 
you want to define them, sustainable. And here is the reason 
that nuclear is sustainable: That pellet right there out of 
this fuel rod will provide your electricity for a year that you 
need. Now, you compare that to what you see with fossil fuels, 
which would take--we would have to fill this room with coal, 
you know. So, I mean, so this is a sustainable----
    Mr. Sablan. I am not against nuclear power, I am just 
asking a question. It is not renewable?
    Dr. Wolfe. Nuclear is not renewable and no other energy 
source is renewable.
    Mr. Sablan. All right.
    And I have no more questions, Chair. Thank you.
    Chairwoman Woolsey. Congressman Kline?
    Mr. Kline. Thank you, Madam Chair.
    Thank the witnesses for being here today, for your terrific 
testimony. I am fascinated by the discussion that has come up 
over what is a green job. I mean, I guess I had that question, 
but I see virtually everybody, it seems like, at the table has 
the same sort of questions.
    Ms. Krepcio, I noticed you sort of highlighted that for a 
bit--what is a green job and a job that is a regular job today, 
or a non-green job today could be a green job tomorrow, and a 
great example of if a plumber comes in and puts in a pipe for a 
low-volume flush, is that a green job? And yet, at the same 
time, you had numbers--percentages and statistics: You said 
that 5 percent of the green jobs were in the renewable area and 
95 percent were in the efficiency. Well, how do you arrive at 
such a number if we don't know what one of those is?
    Ms. Krepcio. Well, I used the statistics from the American 
Solar Energy, and those--and as, you know, when I think one of 
the things this panel points out is a lot of different places 
have a lot of different estimates, and I think it is very 
important. I mean, our research shows that consistently people 
are saying--organizations are saying--energy efficiency jobs 
are much more greater than renewable energy jobs.
    But you are absolutely right. There is not a consensus, as 
I said in my testimony, and there is not a federal standard. So 
I think it is great to have these kinds of conversations and 
dialogues, but my guess is there may never be a immediate 
consensus because could--as I said earlier, could they have 
come to a consensus on, what are those kind of job numbers in 
the information technology field? And it is an evolving area, 
clearly.
    Mr. Kline. Right. Thank you. And I appreciate, frankly, the 
clarity. Even though it is an unclear subject, I appreciate 
your clarity in explaining its unclearness. That is sort of the 
world that we are in here today.
    Ms. Krepcio. What an academic.
    Mr. Kline. Thank you. If we accept the notion that we need 
green jobs and that there is an evolving, growing, green 
industry, do you think--I will ask two or three of you this 
question--that those--that the job training for those ought to 
be available for all American workers?
    Ms. Krepcio. Well, I certainly think that the nation is 
poised to ensure that there are training available for all 
workers who want those kinds of trainings. I think that the 
American public and the American workers are probably grappling 
with--I know my neighbors, colleagues, and friends are going, 
``I would like to get into the green industry, but by the way, 
what is that green industry?''
    And so that is one of the reasons why the Heldrich Center 
is suggesting that we--that the workforce development systems 
build a collaborative workforce model, because you need to 
listen to employers; you need to know where the market is 
going; you need to understand policy. And all that is changing 
quickly, and so therefore, if you want to get in the ground you 
need to have all these kinds of people talking together.
    And the workforce system now isn't great for having 
educators talking with community-based organizations, putting 
out information about where jobs are, but I think we are at a 
point that if we want this industry to succeed we need to do a 
much better job of having that collaborative conversation and 
be able to get that information out to workers so they know 
where to go to get the training that they need. And sometimes, 
as I said, they don't need the training right away; they just 
need to understand maybe some very basics about what is 
installation and what is a low-flush toilet. And eventually, as 
the industry evolves, they might need some more credentials or 
training.
    Mr. Kline. Okay. Thank you. In fact, you said in your 
testimony that we need to include employers in this discussion, 
and your quote is, ``Employers are the best and most up-to-date 
source of information on which certifications and levels of 
education are required for a particular green job.'' But under 
the current law, the Green Jobs Training Program and the 
Workforce Investment Act, unless you are a union workforce, you 
are excluded. And it just seems to me that if we really want to 
expand the job opportunities for the entire American workforce, 
that we ought to open it up for all American workers and not 
restrict it to only union workforces, and thereby, in a lot of 
ways, cutting out employers from the discussion.
    Go ahead.
    Ms. Krepcio. I think it is very important that all workers 
have access to all kinds of jobs across the country. And one of 
the things--and I think in California, you know, we have seen 
great promise in pre-apprenticeship programs, because a lot of 
workers--and we have seen this in some programs in New Jersey--
really need--and as I said in my testimony, they need basic 
academic skills.
    Some people don't have the skills to be able to pass the, 
you know, code requirements for being a carpenter, or a 
plumber, or whatever. And so I think it behooves us to really 
look at pre-apprenticeship programs so entry-level workers, and 
workers in low-income communities, and disadvantaged workers, 
and you know, and my people with disabilities have access to 
all those kinds of jobs. We need every American worker to be 
working, and therefore, we need to find some way to get them 
into that pipeline.
    Mr. Kline. Thank you very much. I will be encouraging all 
my colleagues to join on my Green Jobs Improvement Act so that 
we can include all workers.
    And I yield back.
    Chairwoman Woolsey. Congresswoman Shea-Porter?
    Ms. Shea-Porter. Thank you.
    Ms. Sherman, you were talking about the kinds of buildings 
that you construct, and let me make sure that I have this 
right: You can now construct buildings that produce 50--require 
50 percent less energy?
    Ms. Sherman. That is correct.
    Ms. Shea-Porter. Okay. And you expect us to continue to 
progress in this area?
    Ms. Sherman. Absolutely. I mean, as I said, we are hoping 
that we will eventually build buildings that produce more 
energy than they consume, so actually give energy back to the 
grid.
    Ms. Shea-Porter. Okay. That is the great news. And I have 
to say that I don't understand why so many people in this 
country brag about our past technology achievements while they 
deride and criticize our present technology achievements and 
absolutely doubt this future. So when we are looking at this, 
we know that our future is here and it is now.
    So, Dr. Wolfe, I paid very close attention to your 
testimony because I live in New Hampshire, and not too far from 
Seabrook Plant, I am sure you are familiar with it--bankrupt, a 
lot of problems. We now have to deal with an extra expense on 
our electric bill. So when you were talking about it being the 
cheapest form and cost savings, you know, I had to question 
that.
    But I wanted to talk about some other things about least 
expensive. If we built these nuclear power plants, would you be 
wanting loans from the U.S. taxpayers?
    Dr. Wolfe. I am sorry, would I be----
    Ms. Shea-Porter. Wanting loans? Would the nuclear industry 
build their own or would they come to the taxpayer to build? 
And what is the default rate, please--you know the default rate 
when they use taxpayer money?
    Dr. Wolfe. Well, okay, there are a lot of issues there. One 
is, would I be in favor of loan guarantees, I assume, for 
nuclear construction?
    Ms. Shea-Porter. Right.
    Dr. Wolfe. I certainly would be. I think that is the smart 
thing for the taxpayer to do; I think it is unlikely it would 
ever cost them anything.
    Ms. Shea-Porter. Okay. But they didn't really ask for the 
kind of money that I think nuclear industry would ask. And do 
you know what the default rate is on these loans?
    Dr. Wolfe. Well, we haven't built one in 30 years, so I 
mean, you know----
    Ms. Shea-Porter. It is over 50 percent.
    Dr. Wolfe. It is over what?
    Ms. Shea-Porter. Congressional Budget Office estimated over 
50 percent for a default rate, which means that this would not 
be the least expensive if the U.S. taxpayer has to take on the 
cost for doing this. And again, I see my electric bill every 
month and I know what happened, so I do have a personal 
interest in this.
    But I also wanted to move on about creating jobs. The 
Bureau of Labor Statistics said that it will only create about 
27,000 jobs and some of them, as you indicated, would come from 
elsewhere. And considering our unemployment rate is over 8 
percent right now and we have lost millions of jobs, is this 
really a big job-creator when all these people sitting here are 
also hiring people, but at a faster rate?
    Dr. Wolfe. I think you are talking about the new nuclear 
opportunities. There are also the replacement opportunities 
that I described; I think one-third of the workforce is going 
to retire in the next 5 years. We also have the peripheral of 
businesses that supply the nuclear industry, which aren't 
counted in those job estimates.
    Ms. Shea-Porter. Can you tell us how many jobs you think 
would be generated? Everybody here has pretty much indicated 
something about jobs. Could you name a number?
    Dr. Wolfe. Well, I think the number you used is from a 
study that I have read--the 27,000. The multiplier on those I 
would probably want to defer to Dr. Bogart or someone that is 
more into those multiplier figures, but it is typical that job 
creation will result in two to five additional jobs in the 
industries, and those are the kinds of numbers that I would 
expect.
    Now, that says we are going to build--I think it is based 
on 17 power plants.
    Ms. Shea-Porter. Which would take how long before you 
actually can start building?
    Dr. Wolfe. Well, unfortunately, the system we have, if you 
just think of it today you will probably be 7 years before you 
can start building a power plant.
    Ms. Shea-Porter. Right.
    Dr. Wolfe. However, there are ways to shorten that period 
of time.
    Ms. Shea-Porter. But still, we are talking 6 or 7 years 
before we actually have the jobs, and how long----
    Dr. Wolfe. Except for new builds.
    Ms. Shea-Porter. And once they have started to build, how 
long before a plant would actually go online.
    Dr. Wolfe. A plant can be built from the time you break 
ground in about 3\1/2\ to 4 years, assuming there is no delay 
in the process.
    Ms. Shea-Porter. So we are talking a long range outlook. We 
are looking nine to 10 years before--whereas, the people 
sitting here are really grappling with the issues and being 
able to produce solutions today.
    And I have another question I am going to ask you. You 
talked about it being safe and the greenest, and could you and 
I go on a field trip to Chernobyl today?
    Dr. Wolfe. That is a very, I think--it is not appropriate 
to the U.S. experience. Chernobyl was a very different kind of 
machine, a very different kind of technology, and a very 
different kind of culture.
    Ms. Shea-Porter. Okay. But it is still a problem that we 
are left with. I have a problem in New Hampshire: We have no 
place to put those spent rods right now. And I think we have a 
problem with storage; we have a problem with our technology. 
And I would have to argue it is not the greenest of the green.
    Thank you, and I yield back.
    Chairwoman Woolsey. Thank you.
    Congressman Payne?
    Mr. Payne. Thank you very much. I might just pick up where 
the Representative left off.
    Where do they store yours, and fuel in--you say South 
Carolina is proud of how much they do it--where is it stored?
    Dr. Wolfe. Well, if they are in state it is pretty much 
where everybody's is, which is onsite at the plant site.
    Mr. Payne. And this question never arises from South 
Carolinians that there is--it has been mentioned that their 
potential dangers would be storing of this spent fuel?
    Dr. Wolfe. I am not sure what potential dangers you refer 
to. However, I have personally visited recently such a site. 
The casks are sitting there on a parking lot, and it represents 
all of the fuel from 1984 at the McGuire Nuclear Plant in North 
Carolina. It is a few casks sitting there, and they could 
obviously handle several decades' more in that same location if 
they need to. It would be preferable to have a different 
solution----
    Mr. Payne. Well, why is the big debate about where is it 
going to be stored permanently? You know, you said somewhere 
out in Nevada. Nevada said, ``Bring it out here.'' I mean, you 
know, it seems to be this, you know, in your judgment--you are 
a scientist; I am not--that there is, you know, like storing 
milk. There is no, I mean, it is--I would be 1000 percent 
supportive of all the nuclear energy in the world, I mean, just 
have it all--bring it all to New Jersey--if I thought that it 
was just the safest kind of residue, you know.
    So I am a little confused at sort of the cavalierness, 
``There is no problem,'' and there has not even seemingly been 
a discussion about a potential problem with storage over a 
period of time.
    Dr. Wolfe. Well, there are many facets to the issues you 
are raising, and I know a lot of people are concerned about. 
There are technical solutions to all of those new questions. 
The issues we have are not whether or not we have technology to 
solve those issues; it is more about the political will to 
choose a solution. And there are multiple solutions.
    Mr. Payne. And you are not concerned about the potential 
dangers?
    Dr. Wolfe. I am not. I used to run a business or an 
organization that designed those casks, and they are not going 
to be penetrated.
    Mr. Payne. Okay. So like I said, it is as safe as safe can 
be, in your estimation. I mean, I just am asking your opinion.
    Dr. Wolfe. Okay.
    Mr. Payne. Mr. Ringo, do you have this----
    Mr. Ringo. Well, Congressman, thank you very much. 
Congressman, I grew up in Louisiana in the infamous Cancer 
Alley, where there are petrochemical plants separated by poor 
communities, and I am not opposing Dr. Wolfe's position on--I 
have no position on nuclear. But we must create alternative 
energy sources and pursue alternative energy sources that are 
both people-and environmentally-friendly.
    Those people that live in close proximity to those 
facilities have a history of being disproportionately 
impacted--primarily poor people and people of color. So we must 
pursue energy sources that are environmentally-and people-
friendly, and they are out there. And no better source of 
alternative energy than conservation, than energy efficiency.
    Those are not harmful to the environment. Those energy 
efficiency practices are not harmful to neighbors that live 
just across the fence line from petrochemical plants or any 
type of facility.
    So I urge the U.S. government, the Congress, to encourage 
alternative energy practices that are going to be 
environmentally-friendly. And yes, there are practices that are 
out there.
    Mr. Payne. Right. And finally, it seems like my time is 
running out. You know, several of the European countries that 
do so much in nuclear energy and other toxic--you know, they 
ship it down to some poor African country because they have--
country needs income. So they don't keep it in their country, 
even. I am not talking about their neighborhoods, but they ship 
it down to the poorest African country they can find that is 
willing to accept anything they can simply for income.
    Chairwoman Woolsey. Congressman Hare?
    Mr. Hare. Thank you, Madam Chairman.
    You know, just to the panel, we have been hearing today, 
you know, the definition of what is a green job. From my 
perspective--I come from West Central Illinois--I have counties 
in my congressional district that have 11 to 12 percent 
unemployment, so I am not here today and worried about what the 
definition of a job is; I am much more concerned about putting 
people to work. And you can call it what you want to call it. 
And, you know, from start to finish, as you mentioned, somebody 
that installs windows and then moves up----
    Dr. Bogart, just one of the things I just want to take a 
little bit of an issue with here on the--in your first question 
you mentioned that the net increase in jobs that I think my 
friend from Georgia was mentioning producing an emerging green 
energy sector, and that there is a potential loss----
    I would like to, for the record, Madam Chair, if I could, 
enter a working paper series from Robert Pollin from the 
University of Massachusetts Amherst entitled, ``Responses to 
Seven Myths About Green Jobs,'' and, ``Green Jobs Myths''----
    Chairwoman Woolsey. Without objection.
    [The information follows:]

 Response to ``Seven Myths about Green Jobs'' and ``Green Jobs Myths''

    Two new papers purport to debunk ``myths'' about recent students on 
the employment effects of investments in the clean energy economy. The 
full 97 page version of this work is titled ``Green Jobs Myths'' and 
the 21 page summary paper is titled ``Seven Myths about Green Jobs.'' 
\1\
    These papers are written as a response to what they term the 
``rapidly gaining popularity'' of four studies that attempt to show the 
employment gains that can emerge from investments in building a clean 
energy economy in the United States. The four studies to which they 
refer are U.S. Metro Economies: Current and Potential Green Jobs in the 
U.S. Economy, published by the U.S. Conference of Mayors; Renewable 
Energy and Energy Efficiency, published by the American Solar Energy 
Society; Green Jobs: Towards Decent Work in a Sustainable, Low-Carbon 
World, published by the United Nations Environmental Program; and Green 
Recovery, co-published by the Center for American Progress (CAP) and 
Political Economy Research Institute (PERI) at the University of 
Massachusetts-Amherst.\2\
    These papers offer a few useful correctives on some detailed points 
regarding the links between green investments and jobs. But overall, 
they end up accomplishing exactly the opposite of what they intend. 
They attempt to identify and puncture ``myths,'' on the green economy, 
but instead offer no challenge to the central explanations as to how 
investing in the green economy will provide significant benefits 
throughout the U.S. economy.
    I was the lead author of Green Recovery, and my co-authors were 
Heidi Garrett-Peltier, James Heintz, and Helen Scharber. I am also the 
Co-Director of PERI, and all three of my co-authors are also with PERI. 
This paper was a relatively brief interim report within an ongoing 
research program, on which we work closely with colleagues at CAP, 
particularly the managers of the project at CAP, Bracken Hendricks and 
Kit Batten (though Dr. Batten has recently taken a new position at the 
Department of the Interior).
    The two ``Myths'' papers combine criticisms of our paper, Green 
Recovery, with those of the other three studies. They also discuss some 
issues of their own choosing, beyond the immediate themes on which our 
study and the other three concentrate. Within this structure, at no 
point do they offer a sustained point-by-point refutation of Green 
Recovery or any of the other three studies. They rather begin their 
summary paper by listing the ``seven myths'' and the ``facts'' that 
they claim will refute those myths. However, in the body of both the 
shorter and longer papers, they do not return to that basic structure 
of `myths vs. facts,' but rather offer three broad themes, ``defining 
`green jobs,' '' ``mistakes in economic analysis,'' and ``ignoring 
technical literatures.'' These are all obviously very broad issues. As 
such, it will help us to focus the discussion if I respond to their 
claims regarding each of the seven myths.
    Their Myth #1: ``Everyone understands what a `green job' is.''
    Their Fact #1: ``No standard definition of a `green job' exists.''
    We can dispense with this issue readily. Despite the fact that they 
choose to present their point in a sophomoric, unprofessional tone, 
(``everybody understands * * *'' Who is the ``everybody'' to whom they 
refer?), I nevertheless agree with them on substance. In fact, at no 
point in Green Recovery do we make reference to the term ``green 
jobs.'' In a recent press story, I am quoted as follows:
    Exactly what a ``green job'' is, though, most people aren't quite 
sure yet. ``There's no such thing; that's my definition,'' said Robert 
Pollin, co-director of the Political Economy Research Institute at the 
University of Massachusetts, Amherst. ``I'm greatly in favor of 
investing in things that will promote a clean environment, fight global 
warming, and those investments will all create jobs, and I don't really 
care what color they are.'' \3\
    I have been quoted making similar statements in other media 
stories. What is at issue here? Of course, there are basic 
commonalities between the focus in Green Recovery on green investments 
and job creation and the terms ``green jobs'' or ``green collar jobs.'' 
In all cases, we are clearly referring to initiatives that can 
successfully link policies to promote both a clean environment and the 
expansion of decent job opportunities. Moreover, the term ``green 
jobs'' obviously has wide resonance among sectors of the public--as 
well as the Obama administration--in suggesting the broad range of 
initiatives that will have to be undertaken to build a clean energy 
economy over time.
    Despite these commonalities, it is nevertheless the case that we 
face serious problems in attempting to establish a single operational 
definition of the term ``green jobs.'' For example, if a truck driver 
is delivering solar panels to a construction site, should that count as 
a ``green job?'' What if, the next day, the same truck driver delivers 
pumping equipment to an offshore oil drilling project? Even within the 
project to install solar panels on rooftops, we would of course 
consider the electricians and roofers doing the installation as having 
green jobs. But what about the secretaries and accountants in the back 
office?
    This last observation raises a concern that is particularly 
relevant as regards the approach we took in Green Recovery and related 
work. That is, how should we consider jobs that are not directly 
involved in improving environmental conditions, but are indirectly 
involved? The accountants and secretaries at the back office of a 
construction company are two examples of this consideration. But the 
issue is actually still broader. In this research, we are focused not 
just on the jobs that are directly created by investments in energy 
conservation and renewables, but rather the total number of jobs 
created, including jobs that are both indirectly created (jobs created 
for suppliers of energy producing firms) and ``induced'' (jobs created 
when those newly employed by green investments in turn spend their 
newly acquired wages). We are also concerned to distinguish the 
proportion of jobs--direct, indirect, and induced--created in the 
domestic U.S. economy, as opposed to the jobs created in other 
countries when our environmental investments create an increased demand 
for imports.
    In short, there are many useful points and positive policy ideas 
associated with the high level of attention now being given to the 
concepts of ``green'' and ``green-collar'' jobs. But in the work my co-
authors and I have done, we have found it more constructive to not 
attempt to define these terms or rely on them in any substantive sense.
    Their Myth #2: ``Creating green jobs will boost productive 
employment.''
    Their Fact #2: ``Green job estimates in these oft-quoted studies 
include huge numbers of clerical, bureaucratic, and administrative 
positions that do not produce goods and services for consumption.''
    Green Recovery offers arguments and evidence to demonstrate that 
investments in energy efficiency and renewable energy will create 
employment through the three channels mentioned above, i.e. direct 
jobs, indirect jobs, and induced jobs. Indeed, the central finding of 
our work is that investments of a given dollar amount in energy 
efficiency and renewable energy--concentrating on building retrofits, 
public transportation and freight rail, and smart grid electrical 
transmission systems in the efficiency area, along with renewable 
energy investments in solar, wind, and biomass fuels--will produce 
roughly three times more jobs than spending the same amount of money 
within the oil, natural gas and coal industries. That is, within the 
context of the U.S. economy in its present structure--and as derived 
from the Department of Commerce U.S. Input-Output Accounts--spending $1 
million within the clean energy areas with 70 percent of funds for 
energy efficiency and 30 percent for renewables, will create about 17 
jobs. Spending that same $1 million within the fossil fuel industries 
will create about five jobs. The authors of ``seven myths'' make no 
attempt to directly refute this central empirical finding.
    They also do not make clear how they distinguish ``productive 
employment.'' Two ideas are suggested through their `factual' claim 
regarding ``huge numbers of clerical, bureaucratic, and administrative 
positions that do not produce goods and services for consumption.'' 
First, they claim to know that investments in the green economy produce 
more ``clerical, bureaucratic, and administrative positions'' than 
investments in alternative economic activities, including, presumably, 
investments in fossil fuels and lobbying firms guiding credit to fossil 
fuel firms, and the like. But they offer no systematic evidence to 
support this claim. They also claim to know that ``clerical, 
bureaucratic, and administrative positions'' do not ``produce goods and 
services for consumption.'' Let us consider, for example, secretaries 
employed at the Environmental Protection Agency, an agency engaged in 
pollution control. Are the authors suggesting that these secretaries 
are not providing a ``productive'' service? Is their work less 
``productive'' than that of secretaries working for an oil company 
producing a product that damages the environment? The authors offer no 
explanation.
    Their Myth #3: ``Green job forecasts are reliable.''
    Their Fact #3: ``The green job studies made estimates using poor 
economic models based on dubious assumptions.''
    The authors here are actually raising two distinct questions. The 
first question is, Are green job forecasts reliable? I will speak only 
to the figures reported in Green Recovery. Those figures, in fact, are 
not forecasts at all. They are figures generated directly from data 
from the Commerce Department's surveys of businesses within the United 
States, and organized systematically within their input-output model. 
Within the given structure of the current U.S. economy, these figures 
provide the most accurate evidence available as to what happens within 
private and public enterprises when they produce the economies' goods 
and services--i.e. how many workers do they hire, and what are the 
materials they purchase? Our methodology is to work within this 
detailed survey evidence and data set, and to pose simple questions 
within it: e.g. if we spend an additional $1 million on building 
retrofits, how will businesses utilize that million dollars to actually 
complete the service of the retrofit?
    Through this approach, we have been able to make observations as to 
the potential job effects of alternative energy investment strategies, 
at a level of detail that is not available through any alternative 
approach. The authors of ``Seven Myths'' offer no evidence that any 
alternative to the U.S. input-output tables can provide more reliable 
evidence on the detailed workings of the U.S. economy.
    Now to the second question: Does our model constitute an example of 
``using poor economic models based on dubious assumptions?'' There are 
certainly weaknesses with our use of the input-output model. The most 
important are that it is a) a static model; and b) a linear model. But 
these deficiencies need to be considered in the context of alternative 
approaches that, in my view, have even more serious weaknesses. 
Consider these points:
    1. Static model. We are making estimates as though everything is 
happening at a fixed point in time. A more realistic picture of the 
economy would of course have to recognize that the spending effects of 
a government recovery program will take place over time, and that these 
timing effects are important. Adding a time dimension would make the 
model ``dynamic,'' in the technical jargon.
    The problem here is how to incorporate a time dimension in an 
effective way. This issue has plagued econometric forecasting efforts 
for a long time, and there is no sign of the problem abating. The 
dismal record of even the most prestigious forecasting models even over 
the past year attests to the issue.
    Consider two highly relevant and interrelated cases in point. 
First, few, if any, economic forecasting models predicted that, by June 
2008, crude oil would be selling at $140 a barrel. This would include 
forecasts generated less than one year before crude hit $140 a 
barrel.\4\ Once the price of crude oil did rise to $140 a barrel, few, 
if any forecasters then predicted that the price would collapse to $35 
a barrel only six months later. More generally, almost no economic 
forecasts predicted that the U.S. economy would enter into a recession 
in December 2007 of historic severity. This includes even the forecasts 
that were published after the recession had already begun.\5\
    In principle, a dynamic model does offer a more complete picture 
than a static model as to how the economy operates over time. But 
because dynamic forecasting models are so unreliable, I think it is 
preferable to work within a simpler framework, and draw out assessments 
of how transitions over time affect the results within this simple 
framework.
    2. Linear model. Our model assumes that a given amount of spending 
will have a proportionate effect on employment, no matter how much the 
level of spending changes, either up or down. For example, the impact 
of spending $1 billion on an energy efficiency project will be exactly 
1,000 times greater than spending $1 million on the exact same project.
    The most significant consideration here is that we take no account 
of potential supply constraints in moving from a $1 million to a $1 
billion project. Under some circumstances, this could be a significant 
deficiency in the model. But under current conditions in the U.S. 
economy, with widespread slack in the midst of a severe recession--i.e. 
with deep and worsening unemployment and with private-sector lending 
and investment almost flat--we are on pretty safe grounds with our 
assumption that supply constraints will not exert a major influence how 
the spending on green recovery impacts the economy.
    A variation on the problem of linearity in our model is to 
recognize that the model, in the technical jargon, is a ``partial'' 
rather than a ``general'' equilibrium model. The model does not take 
account of, for example, feedback effects of prices of solar panels 
when demand for these panels rises due to the stimulus program. Again, 
a more fully specified model would take account of such factors--that 
is, if the stimulus program leads to increased demand for solar panels, 
prices of the panels will rise, all else equal. Then for a given level 
of spending, fewer panels will be purchased at higher prices/panel. 
This will then mean that a given level of spending on panels will 
likely mean that fewer jobs will get created to build, deliver, and 
install the panels.
    But here again, the forecasting record of more fully specified 
``computable general equilibrium models'' is not encouraging. Moreover, 
again, the fact that we are operating within an economy with widespread 
slack means that these feedback effects are likely to be weak.
    Overall, I am confident that our relatively simple input-output 
framework provides the basis for as accurate a set of job forecasts as 
can be obtained through the existing available models and modeling 
techniques. The authors of ``Seven Myths'' disagree. They offer brief 
general impressions as to what the features might be of an alternative 
model. But they provide no evidence showing how an alternative model 
will perform more effectively than our own. They also make no attempt 
to consider the pitfalls facing such models, suggesting perhaps that 
they are unaware that these alternative models have severe limitations.
    Their Myth #4: ``Green jobs promote employment growth.''
    Their Fact #4: ``By promoting more jobs instead of more 
productivity, the green jobs described in the literature actually 
encourage low-paying jobs in less desirable situations. Economic growth 
cannot be ordered by Congress or by the United Nations. Government 
interference in the economy--such as restricting successful 
technologies in favor of speculative technologies favored by special 
interests--will generate stagnation.''
    The green investment agenda that we advance in Green Recovery does 
indeed ``promote employment growth'' in the precise way that we have 
defined that term--that is, the employment levels in a portfolio of 
clean energy areas generates about three times more employment than 
spending within traditional fossil fuel industries. As described above, 
we derive these findings directly from the U.S. input-output model. 
Despite the limitations of that model--of which I am aware and describe 
above--this still provides the most accurate framework for establishing 
the relative employment effects of alternative spending targets. The 
authors of ``Seven Myths'' offer no evidence to suggest otherwise.
    But are the jobs generated by the clean energy agenda ``low 
paying'' in ``less desirable situations.'' Are we erroneously 
``promoting more jobs instead of more productivity''?
    On the issue of pay levels, we were quite explicit in Green 
Recovery on the breakdown between high- and low-paying jobs, as well as 
on future job opportunities. We wrote:
    Green investments generate not only significant numbers of well-
paying jobs with benefits but also a relatively high proportion of 
lower, entry level jobs that offer career ladders that can move low-
paid workers into better employment positions over time.\6\ The average 
pay for employees associated with green investment areas is about 20 
percent less than the average for those connected to the oil industry. 
But this number is deceptive because a green investment program will 
create roughly triple the number of good jobs--paying at least $16 
dollars an hour--as the same level of spending within the oil industry. 
A green infrastructure investment program creates more jobs at all wage 
levels than spending within the oil industry because of both higher 
labor intensity and greater domestic content--resulting in average 
wages that are lower than the oil industry but spread across a greater 
number of jobs created (pp 11-12).
    If the green investment agenda creates three times the number of 
good jobs as spending within the oil industry, how is it, as the 
authors of ``Seven Myths'' suggest that all the jobs created by green 
investments are ``low paying'' in ``less desirable situations?'' They 
do so only by ignoring the evidence we have provided.
    Are jobs within the green economy low productivity jobs? This is a 
serious question, deserving careful consideration. If we begin with the 
standard definition of labor productivity as output/worker, it then 
follows by definition that, if clean energy jobs on average operate at 
higher labor intensity, this means they produce less output/worker.
    Yet, aside from this conventional definition of labor productivity, 
three other considerations are crucial here. First, by raising overall 
employment, the green investment agenda is giving new opportunities to 
previously unemployed workers. This raises the productivity level of 
millions of workers from zero to a positive number. Second, the green 
investment agenda is creating new opportunities for underemployed 
workers--and thereby raising their productivity from a lower to a 
higher level. Third, given the crisis of global warming, we need to 
begin incorporating environmental effects in the measurement of output 
and productivity. That is, spending on fossil fuels creates the output 
``good'' of, for example, electrical power. But it also creates the 
output ``bad'' of pollution and greenhouse gas emissions. This point 
has long been recognized in discussions of the environmental costs of 
economic growth, and is included in virtually every introductory 
economics textbook. The authors of ``Seven Myths'' make no reference to 
such considerations.
    Their Myth #5: ``The world economy can be remade by reducing trade 
and relying on local production without dramatically decreasing our 
standard of living.''
    Their Fact #5: ``History shows that individual nations cannot 
produce everything its citizens need or desire. People and countries 
have talents that allow specialization in products and services that 
made their ever more efficient, lower-cost producers, thereby enriching 
all people.''
    There is nothing in Green Recovery that suggests that the U.S. 
economy should ``rely on local production.'' On the other hand, both 
the current economic and the long-term environmental crisis do in fact 
suggest the need for `the world economy to be remade.' Indeed, there is 
little controversy across the political spectrum as well as the 
economics profession on this need. The only real question is not 
whether the world economy should be ``remade'' but what exactly is the 
best approach for remaking it.
    There are certainly benefits to be gained through international 
trade. The economics of the ``Asian Tigers,'' including now most 
dramatically China itself, attest to this. However, recognizing these 
benefits does not lead inexorably to an endorsement of unfettered free 
trade across all countries under all circumstances, as the ``Seven 
Myths'' authors seem to believe.
    The U.S. economy has run a persistent trade deficit for over forty 
years, which has had destabilizing effects, most clearly through the 
build up of huge dollar reserves by our trading partners. We have also 
experienced serious political difficulties due to our reliance on 
foreign oil imports. The green investment agenda offers a major 
opportunity to reduce our reliance on foreign oil. More specifically, 
as we describe in Green Recovery, the domestic content of green 
investments is significantly higher than with fossil fuels 
specifically, and the oil industry in particular. This, along with 
higher labor intensity, are the two major factors creating relatively 
more jobs through the green investment agenda than through fossil fuel 
production.
    There are two primary ways through which the green investment 
agenda raises domestic content. The first is through reducing oil 
imports. The second is from the fact that most energy-efficient 
investments are naturally location specific. That is, homes located in 
Silver Spring, Maryland can only be retrofitted by workers in Silver 
Spring. Similarly, the electrical grid system in Maryland can be 
upgraded only in Maryland. Clearly, the simple reality of location-
specific activities has nothing to do with the creation of trade 
barriers.
    The higher domestic content of the green investment agenda--as well 
as the net job creation effects in general--have another major benefit, 
which is that they offer a counterforce to the pressures on U.S. 
workers from global outsourcing. The potential effects of global 
outsourcing on U.S. workers were explored forcefully in Foreign Affairs 
magazine in 2006 by the Princeton economist and former Vice Chair of 
the Federal Reserve Alan Blinder. Blinder argued that, increasingly, 
services that can be carried over the internet--including the telephone 
operators in India with whom we are already familiar, but also back-
office accountants, lawyers, engineers, and laboratory technicians as 
well as their support staffs--can be effectively supplied by employees 
in poor countries that work for, say, one-fifth the wages of their U.S. 
counterparts. These would be in addition to the manufacturing jobs that 
have long been forced to compete with China and other low-wage 
producers. Blinder's conclusion was that something like 20--30 percent 
of all jobs in the United States today--between 30 and 40 million jobs 
in total--are vulnerable to these outsourcing pressures. The single 
most effective way to counter these pressures is for employment 
creation to be set as a centerpiece of U.S. public policy. The green 
investment agenda cannot fulfill this role on its own, but it can move 
us a good distance in the right direction. The authors of ``Seven 
Myths'' ignore this consideration within U.S. trade policy, despite its 
prominence in both academic and policymaking circles.
    Their Myth #6: ``Government mandates are a substitute for free 
markets.''
    Their Fact #6: ``Companies react more swiftly and efficiently to 
the demands of their customers/markets, than to cumbersome government 
mandates.''
    This Myth/Fact pair has little connection to the content of Green 
Recovery. The programs proposed in Green Recovery include direct 
government spending programs, tax incentives for businesses, and loan 
guarantees for private lenders who will support business investment in 
green activities. The majority of total spending proposed in Green 
Recovery is channeled to private businesses through tax incentives and 
loan guarantees. In addition, Appendix 2 is devoted in full to analytic 
issues associated with maximizing the effectiveness of our proposed 
loan guarantee proposal. We were pleased that the Obama recovery 
program closely reflects this priority for private business 
initiatives. Moreover, private businesses will also benefit directly 
through the public spending features of both the program we presented 
in Green Recovery and the Obama plan, through new opportunities for 
government construction projects and the spending stimulus being 
injected into private markets. It isn't clear how these business 
incentive programs could be construed, in the terms used in ``Seven 
Myths'' as ``ignoring incentive effects'' or ``market hostility.''
    Green Recovery does briefly discuss one government mandate program, 
which is a cap-and-trade measure to require reductions in greenhouse 
emissions. The need for a carbon cap--or some variation on this, such 
as a carbon tax--emerges precisely through the failure of the free 
market to incorporate into market prices the environmental costs of 
burning fossil fuels. Again, such material is standard fare in 
virtually all introductory economics textbooks. But the authors of 
``Seven Myths'' do not consider this even though their discussion 
around ``Myth 6'' would have been an obvious place for such a 
discussion.
    Their Myth #7: ``Wishing for technological progress is 
sufficient.''
    Their Fact #7: ``Some technologies preferred by the green jobs 
studies are not capable of efficiently reaching the scale necessary to 
meet today's demands.''
    It is hard to take seriously assertions of this nature. Who has 
stated anything on the order of ``wishing for technological progress is 
sufficient?'' Certainly, nothing close to any such claims were 
expressed in Green Recovery.
    In fact, there was a specific reason why, in Green Recovery, we 
proposed that 70 percent of the allocation for all green investments be 
channeled to energy efficiency measures as opposed to 30 percent for 
renewable energy. That is precisely because the technologies for 
achieving energy efficiency are known, relatively simple for the most 
part, and provide short-term, high-probability, paybacks. In Green 
Recovery, we work through the investment and payback opportunities 
available through a $2,500 retrofit of an average-sized U.S. home, 
based on data available through the EPA as well as through my 
University of Massachusetts colleague Professor Paul Fisette. Professor 
Fisette is one of the country's leading experts on the materials 
science issues associated with building retrofits. We showed in our 
discussion that, relying on simple, available and affordable 
technologies, the $2,500 retrofit would lower home energy costs by 
about one-third. This would mean a payback for the initial $2,500 
investment within three years (p. 15).
    A wide range of such opportunities are clearly available now in the 
area of energy efficiency, using known technologies. The renewable 
energy technologies are more uncertain at present. That is why we 
proposed channeling a smaller overall proportion of green investment 
funds into these areas. The amounts we proposed will be enough to 
accelerate research and commercialization in renewable energy over the 
next decade, while energy efficiency remains the leading edge of the 
green investment agenda.
    Again, I don't see how this approach advanced in Green Recovery 
could somehow be construed as ``wishing for technological progress is 
sufficient.'' It would be more constructive if the authors of ``Seven 
Myths'' were to consider the arguments and evidence that were actually 
advanced in Green Recovery. That would have enabled us to perhaps 
conduct a healthy debate on these matters of great importance. That is 
simply not possible on the basis of the unsubstantiated claims they 
have chosen to make.
                                endnotes
    \1\ The four authors of both papers are Andrew Morriss, William 
Bogart, Andrew Dorchak, and Roger Meiners The longer version of this 
report is at: http://www.instituteforenergyresearch.org/wp-content/
uploads/2009/03/morriss-green-jobs-myths.pdf; the shorter version is 
at: http://papers.ssrn.com/sol3/papers.cfm?abstract--id=1357440#
    \2\ U.S. Metro Economies: Current and Potential Green Jobs in the 
U.S. Economy is available at http://www.usmayors.org/pressreleases/
uploads/GreenJobsReport.pdf; Renewable Energy and Energy Efficiency is 
available at http://www.ases.org/index.php?option=com--
content&view=article&id=465&Itemid=58; Green Jobs: Towards Decent Work 
in a Sustainable, Low-Carbon World is available at http://www.unep.org/
labour--environment/PDFs/Greenjobs/UNEP-Green-Jobs-Report.pdf; and 
Green Recovery is available at http://www.peri.umass.edu/green--
recovery/
    \3\ See Emily Badger, Miller-McCune Business, ``What Shade of Green 
Best Suits the Economy,'' http://www.miller-mccune.com/business--
economics/what-shade-of-green-best-suits-the-economy-910.print, 1/22/
09.
    \4\ Three prominent forecasts published in 2007 of where crude oil 
prices would be in 2008 include JP Morgan, in August 2007, estimating 
$59.75 a barrel; Goldman Sachs, in September 2007, estimating $85 a 
barrel; and the U.S. Energy Information Agency, also in September 2007, 
estimating $71.17 a barrel. Crude oil prices in the U.S. market are 
reported at: http://tonto.eia.doe.gov/dnav/pet/hist/wtotworldw.htm
    \5\ This general problem of making accurate economic forecasts was 
captured well by former Federal Reserve Chair Alan Greenspan's 
unintentionally amusing observation made at the 1999 annual meeting of 
the International Monetary Fund and World Bank that ``The fact that our 
econometric models at the Fed, the best in the world, have been wrong 
for fourteen straight quarters does not mean they will not be right in 
the fifteenth quarter'' (Martin Mayer (2001), The Fed, p. 180). This 
approach is consistent with the conclusions reached by Lawrence Summers 
in his outstanding paper, ``The Scientific Illusion in Empirical 
Macroeconomics,'' Scandinavian Journal of Economics, 93:2, 1991, pp. 
129-48.
    \6\ In fact, a high proportion of the low-paying jobs created by 
green investments will be in construction and manufacturing, where 
career ladders are substantially more effective than in service-sector 
areas--such as hotel and restaurant workers--associated with household 
consumption.
                                 ______
                                 
    Mr. Hare. Thank you.
    How would you respond to Mr. Ringo's point that most green 
jobs can't be outsourced because they would have to be, you 
know, serving technologies and systems here in the United 
States. Yet I have--you know, we have seen a lot of jobs in 
this country move overseas.
    I lost 1,600 people from Galesburg, Illinois to Reynosa, 
Mexico when Maytag closed their doors. You know, I would love 
to see those people have the opportunity to work. And again, as 
I--to go back to work--and again, as I said, you can call it a 
green job or you can call it a red job or whatever--a spotted 
job, I don't care what you call it, but these people 
desperately need to work.
    And I am wondering if you would agree with me that whatever 
these jobs that are created would be--U.S. jobs--they would 
outweigh any potential job loss, and would you agree with me on 
that?
    Dr. Bogart. Congressman, that is a great question. I think 
the issue is whether or not that job loss is also U.S. jobs. If 
these are jobs that are being created at the expense of other 
U.S. jobs that are being lost, then it is hard for me to 
completely agree with that.
    I would agree with Ms. Krepcio that we do want to extend 
the training very broadly and look for those types of 
opportunities, and to encourage growth and entrepreneurship as 
demonstrated by the panelist to my right. I think that is 
exactly what we should be doing in the United States. So I 
would agree with you about that.
    Mr. Hare. Okay.
    And Mr. Ringo, I was glad that you mentioned the 
Manufacturing Extension Partnership, also known as MEP. I have 
had 65 clients in my district; it generates $126.8 million 
dollars in sales, created 836 jobs in my congressional 
district. And I testified before the Budget Committee about the 
need to double this amount, to double the critical program for 
fiscal year 2012.
    How much would--in your opinion--would we need to expand 
MEP funding for it to be more effective, and what is the best 
way to develop a green mission or focus for MEP and its 
clients?
    Mr. Ringo. I think----
    Mr. Hare. Can you turn your mic on? I am sorry.
    Mr. Ringo. I believe you are correct that it should be 
doubled. We have just got to create these opportunities, and 
the bottom line is--and I fully agree with you with respect to 
trying to figure out what the definition is--the bottom line 
is, we have got Americans that are out of work.
    Mr. Hare. Absolutely.
    Mr. Ringo. We have got to figure out ways to put people 
back to work again. The fact of, ``Well, we are going to lose 
jobs by creating new jobs,'' look, there are enough people out 
of work that if we create jobs in America, stimulate our 
American economy with new jobs, we must diversify our energy 
portfolio.
    It doesn't mean that we need to shut the doors on certain 
petrochemical plants because we come up with new alternatives. 
What we do need to do is expand our energy portfolio so we are 
not so single-dimensional with respect to our energy and take 
the necessary steps that it takes in a major way to put 
American manufacturers back to work again.
    And if we need to increase the amounts of investment that 
we are making through the government to guarantee those 
increases in job numbers, then we need to go as far as we need 
to go. We need to get people back----
    Mr. Hare. And one last quick one; I am out of time, almost. 
I also think we need to invest in our community colleges. I 
have a community college in my district that is training people 
to work in biodiesel and ethanol factories, and it doesn't do 
any good to have a factory if you don't have a trained 
workforce. I have John Deere, who is looking for welders, and I 
have a community college that is trying to get a welder 
program, and these are people who are looking for work.
    So if we invest in our community colleges to train people 
to go to work, they are going to have the opportunity to have a 
job, and these are probably going to be long-term, sustainable 
jobs. Again, you can call it whatever you want to call it, but 
they are going to call it a paycheck and being able to buy a 
home and put their kids through school.
    Thank you, Madam Chair.
    Chairwoman Woolsey. We are going to have a second round, if 
you folks are willing.
    Dr. Bogart, you were talking about the definition of green 
jobs being difficult and not transparent and we should not 
waste money. I would like to take that to another place, where 
we are talking about making coal clean and nuclear safe. And 
there is a limited amount of investment in this new, upcoming 
industry called the green industry, not just for the United 
States but for the world. And there will be a lot of 
competition.
    Do you think it is wise to invest in cleaning up coal and 
making nuclear safe, or should we be investing in solar and 
wind and windows, and the kinds of things that we know we can 
do immediately?
    Dr. Bogart. Here is why I would agree with Mr. Ringo: I 
think we do need to take a very broad portfolio view, and my 
concern is more about an overly narrow definition that leads 
people to try to squeeze themselves into a box that doesn't 
fit. I think we should be looking at all those possibilities 
because we need to do things in the short run that are 
immediate; we also need to keep planning for the future and 
investing for the future so that over the next few years 
technologies that we haven't even thought of have room to grow 
and develop here.
    Chairwoman Woolsey. Mr. Ringo?
    Mr. Ringo. I do want to reiterate, as we talk about that 
broad view, about that broad portfolio, that those items that 
are to be a part of that portfolio must be environmentally-and 
people-friendly. I want to be very clear about that.
    Chairwoman Woolsey. Right.
    Ms. Sherman?
    Ms. Sherman. Yes. I wanted to speak a little bit to the 
issue of the loss of the job in one industry being replaced by 
another job. You know, if that job was going away because that 
industry doesn't make sense anymore because the technology is 
changing and the world is shifting--you know, in Oregon we were 
a very resource-based economy, and you know, some of those jobs 
just went away because that resource-based economy in some 
respects, you know, can't work the same way anymore.
    So I would sort of disagree. I think some of those jobs 
might have gone away regardless of the fact--you are not just 
replacing a one-for-one. You really are getting something.
    And then on the training and the community colleges, you 
know, the way everyone has talked about green jobs being so 
broad, from entry-level to, you know, Ph.D.s, scientists, the 
education and training piece has that same spectrum where you 
are talking about technical programs in community colleges and 
associate degrees and certificates. So there is, you know, 
automotive degrees that then look at green automotive programs 
and so forth, all the way up to 4-year graduate schools, you 
know, and Ph.D.s again, who are your scientists. I think there 
is a real connection between that spectrum.
    Chairwoman Woolsey. To just follow on to that, if anybody 
would like to respond, one of the witnesses said that community 
college--or, colleges and employers weren't talking together. 
That is totally not true in my district, north of the Golden 
Gate Bridge. I mean, our community college is working with the 
industry and our 4-year university is working with industry. 
Would anybody like to respond to that?
    Well, let us go with Ms. Krepcio.
    Ms. Krepcio. I think it really depends on what part of the 
country--in some parts of the country educators, post-secondary 
community colleges, K-through-12 are working well with 
industry; in other parts of the country there is room for--
there certainly is room for improvement. I think that the 
workforce system in this country has been okay in trying to 
work with educators and industry people to put people into jobs 
that are currently there.
    I think the challenge in the green jobs movement is 
predicting the jobs of the future so that we have a ready-
trained workforce. And I think that is why we are recommending 
these very interactive collaboratives.
    Chairwoman Woolsey. Congressman Price?
    Dr. Price. Thank you, Madam Chair.
    I want to make a few comments about some of the discussion 
that has already occurred. I think it is important to follow up 
on my colleague's comments from New Hampshire about the default 
rate for nuclear power plants. If one were to read the 
transcript so far, one would be left with the notion that 50 
percent of the nuclear power plants in this nation have 
defaulted, which simply isn't true.
    It is important for people to appreciate that this estimate 
came from the Congressional Budget Office, which has a great 
history of being off by hundreds and sometimes thousands of 
percent. And what they use--they use this figure, the 50 
percent default rate, in their financial modeling for the 
future in order to get money for something else to balance the 
budget. The CBO does things in a static way as opposed to a 
dynamic way, so it ought not be given much credibility 
certainly by this committee, and I know it isn't across the 
nation.
    Secondly, nuclear safety: There is a great reason why we 
haven't, as a nation, tackled the issue of what to do with the 
spent fuel rods, and that is because we haven't had the 
political will to be able to do it. And right now, Senator Reid 
is standing in the way of that and this administration is 
standing in the way of that for appropriately storing, safely 
storing the spent fuel rods in Yucca Mountain has been a 
challenge for decades, as all of you know, but I think it is 
important to bring that to light.
    Let me go back to where I started, and that is the vision 
that we all have. We all want a clean environment, and we want 
to create and preserve jobs. I am with my friend, Mr. Hare, I 
don't care what you call them. But I do know that when we are 
talking as a committee and we are talking as a Congress about 
where we are going to put taxpayer resources, we better be able 
to define what we are going to do.
    So from an energy standpoint, whether it is nuclear, or 
wind, or solar, or clean coal, or new technology, or 
conservation, we ought to do it all. We ought to do it all, 
which is what my side of the aisle has been pushing for years, 
and last August spent the entire month here on a quite House 
floor without any lights and without any microphones trying to 
bring a highlight to the sense that the American people have, 
and that is that we need a sane energy policy, which means do 
it all.
    All also includes safe nuclear technology. It is not often 
that the United States looks to France for leadership and 
guidance, but in the area of nuclear power we certainly 
should--80 percent-plus of their energy has been supplied by 
nuclear power for decades--for decades. And I just want to 
highlight Dr. Wolfe's statement about the safety: not a single 
fatality. Not a single fatality in over 50 years of the nuclear 
industry in the United States.
    I do want to follow up, though, on a comment made by my 
colleague from Minnesota, Colonel Kline, who talked about some 
language in the current proposal that would require that any 
individual, to be eligible for federal monies in the area of 
green jobs, would have to be a member of a union. Understanding 
that 84 percent of the jobs out there in private industry are 
non-union jobs, and 84 percent of the nation's workforce might 
be eligible, given this broad definition that we want to have 
of green jobs, do any of you believe it is appropriate to 
confine the use of the definition of green jobs to union jobs 
only? Anybody believe that is appropriate?
    Mr. Ringo?
    Mr. Ringo. May I respond to that?
    Dr. Price. Sure.
    Mr. Ringo. I believe that--and it is important--that we 
recognize the value and the role that organized labor has 
played in securing and guaranteeing good jobs.
    Dr. Price. I understand that perspective, but the question 
is should we, as a Congress--we are going to be asked to define 
this--should we, as a Congress, require union membership in 
order to be eligible for monies--taxpayer monies--for green 
jobs?
    Mr. Ringo. If there are guarantees that people that are 
non-union are going to have good-paying jobs with good 
benefits.
    Dr. Price. And I would agree. That is a different 
discussion, though, as opposed to a definition of green jobs.
    Anybody else believe that we ought to require----
    Ms. Sherman. Well, I would just echo what Mr. Ringo said in 
that I think it is a shortcut to somehow know that those kind 
of benefits, and the living wage, and the family wage are part 
of the----
    Dr. Price. But the question is, should--under the 
definition of green jobs, should it say union membership?
    Ms. Sherman. But how do you know----
    Dr. Price. The question is, should you say ``union 
membership''?
    Ms. Sherman. But it does matter, because----
    Dr. Price. Does it make any difference as to whether or not 
that individual is building something or contributing something 
that will be environmentally-sensitive and sound?
    Ms. Sherman. Well, only because if you are trying to create 
family wage jobs and you don't have another way to measure it 
or another way to guarantee it, the union, I think, has been a 
shortcut way to get there, to make sure those are family wage 
jobs with benefits, which is the other piece, I think, that has 
been really an important part of the conversation.
    Dr. Price. Madam Chair, with all due respect, I would 
suggest that family wage jobs and unionization and the like is 
a different discussion and a different debate for this 
committee. But in terms of the definition of green jobs, I 
think that the American people believe that whether or not one 
is a union member doesn't--ought not restrict one to taxpayer 
money for the subsidization of green jobs.
    Chairwoman Woolsey. You have been heard, sir.
    Dr. Price. Thank you.
    Chairwoman Woolsey. Congressman Hare?
    Mr. Hare. Well, let me just assure my friend from Georgia 
that when we pass the Employee Free Choice Act, the President 
signs it into law, we will have a significantly higher amount 
of people in the labor movement, and so the point may very well 
be moot.
    Dr. Price. Gentleman--will my friend yield?
    Mr. Hare. No. I just want to get to Mr. Ringo, a question 
here.
    You mentioned that we don't make most of the systems 
involved in producing clean energy here in the United States. 
In fact, you know, with half of America's existing turbines 
were manufactured overseas. We ranked fifth among countries 
that manufacture solar components, and even though the solar 
cells were born in America, which to me is incredible.
    So I would like to know from you, how does this happen, and 
what can we as the Congress do, or we as a nation do to bring 
the production back to the United States? You know, we are 
shipping--it seems to me we are shipping jobs overseas and we 
have this crazy system here where we actually give tax breaks 
to people to leave instead of giving them credits or doing 
things to keep existing companies here that have been here, 
played by the rules.
    And, you know, as I said about Maytag, it took $9 million 
in state money, the employees--union employees--took three wage 
concessions, and yet, they bolted for Sonora, Mexico, leaving 
1,600 people out of luck. So how are we going to get these 
things back, and what are we going to do, in your opinion?
    Mr. Ringo. The United States graduates about 70,000 
scientists a year from U.S. universities. China graduates 
300,000 scientists a year from Chinese universities. I think 
the best start is education. We have got to begin to educate 
people--young people, K-through-12--and even, especially, we 
talked about the community college systems.
    We have got to invest into those community college systems, 
the green jobs training, because community college--folks don't 
leave San Francisco to attend a community college in 
Pittsburgh. Community colleges embrace people within the 
community, and you grow and empower people within the 
community.
    So I believe that once we begin to change, we begin to 
change the thought processes of the American people with 
respect to energy consumption and energy production, and why it 
is important, and how important it is that we can stimulate our 
economy through new green jobs and good jobs, then people will 
begin to accept the value of their involvement.
    It is sort of like, I mentioned to Congressman Payne 
earlier, in the minority communities of this country and poor 
communities of this country, people have not been engaged in 
the green movement over the years because their priority has 
been focused on next month's rent. But now, when people begin 
to see the value of involving--in getting involved in green and 
how it can stimulate their quality of life, they tend to get 
involved. So we have got to invest in educating our people into 
seeing the value of----
    Mr. Hare. Well, I think you just hit the key word: We need 
to invest. I mean, what this Committee--and I have often said, 
and I will talk about expense--what are you going to spend on 
education? It is not what we are going to spend on education, 
it is what are we going to invest in education? We have a 
country that spends more to put one person in a federal 
penitentiary for 1 year than we do on a child for K-through-12.
    We don't give the kinds of funds that we want to our 
community colleges to train people for these jobs. We can talk 
all of this green technology and jobs--sustainable jobs--but 
when we are making the wind or whatever, when we are making 
these products overseas.
    And I just have to tell you, you know, pardon my rant, but 
I am a little bit tired of seeing a nation as great as this 
that can't manufacture a camera made in this country, a VCR, a 
television set anymore that used to have Venus and a number 
things in my home state--it is gone. And we are on the verge of 
losing the very base that built this nation.
    And so from my perspective, what I want to see us do is 
invest. And you hit the word, Mr. Ringo, right on the--that is 
exactly what this is. You know, if we have got money to throw 
at the banks, then we have got money to invest in our students 
and young people, and invest in the types of jobs that we are 
talking about here today regardless of where they are from. 
Because the ultimate goal, I think, of this nation is to get 
people back to work so they can put their kids through school, 
have health care, be able to afford a house, and at the end of 
the day be able to retire with a pension. And, you know, they 
are not asking to live and drive a Lexus; they just want to 
keep their Ford pickup and be able to put their kids through 
school. This is not rocket science.
    And so, I appreciate you all being here today, and this 
investment that we make in this country--that is the bottom 
line. That is what we should be doing, as a Congress, is 
investing in our people. And I think that whether--as I said 
before, whatever you call these jobs, whatever color you want 
to name them, let us get this country back to work again.
    Thank you, Madam Chair.
    Chairwoman Woolsey. Thank you, Mr. Hare.
    Mr. Price, for closing remarks?
    Dr. Price. Thank you, Madam Chair.
    I want to thank the witnesses again for their testimony and 
revisit my opening statement: We all want a clean environment. 
The vision that we have is to create and protect jobs across 
this nation. There is unanimity of opinion on that, and we 
ought to embrace the common opinion and common perspective that 
we have and move forward as opposed to cloud it.
    I can't let the comments of my friend go without my 
comment, though, and that is, he says we can't create--we can't 
manufacture a camera or a television in this nation, and those 
jobs are gone. It is true that they are gone. Why are they 
gone, would be an appropriate question to ask in this nation, 
and we have asked that. It is not because the workers aren't 
there; we have the highest-quality workers in the world.
    I would suggest, as many of my colleagues would, that it is 
because of specifically federal taxation, regulation, risk of 
liability, federal rules that make it so that jobs move 
offshore. So I would also agree that we ought to invest in our 
people by sound policy.
    I would also make the comment that my friend talks about 
Card Check, which is, as people know, the Secret Ballot 
Destruction Act; it would remove the secret ballot from the 
ability to have a secret ballot for the formation of a union. I 
would point out that a recent study by Anne Layne-Farrar, an 
economist with the nonpartisan LECG Consulting, shows that that 
bill alone would cost 600,000 jobs in this nation in the first 
year--600,000 jobs.
    So I would hope, Madam Chair--I want to thank the 
witnesses. I would hope that we would coalesce around those 
items upon which we can agree, and I think that we can if we 
work positively and cooperatively together and not cloud the 
issue of a clean environment and green jobs, which I believe 
ought to be an expansive definition that actually incorporates 
all those folks--the folks that are putting the caulk in the 
window and the like--because that is the only way we are going 
to be able to create real jobs in this nation.
    Thank you.
    Chairwoman Woolsey. Thank you very much. I was told that I 
didn't have to give you closing remarks, and I said, ``Oh, yeah 
I do.'' Well, maybe I won't.
    [Laughter.]
    Yes, I do. I would never not.
    Thank you all for attending. This was a great hearing. It 
was really something.
    And your availability as witnesses tells us how important 
this is to you as well as it is to us. What we have heard today 
makes it absolutely clear that we need to form a consensus 
around the definition of green jobs, and we know that in the 
end it will be defined in partnership with the Department of 
Labor, and that we are going to ensure that green jobs enhance 
our environmental quality. And we know there are existing jobs; 
we know that there are jobs that are being created; there are 
good jobs that create a pathway for workers into sustainability 
so they can raise their families and send their kids to college 
and retire in dignity. That is our goal. If it means they have 
to be union workers to make that happen, so be it, but I think 
that if we set the standard we will make it happen so that we 
aren't investing in a technology, a future, an industry in this 
country that leaves the workers poor. That can't happen, and we 
won't let it happen.
    So let us work together. I appreciate you. I appreciate 
you, Congressman Price. And we have got a ways to go; it is 
very obvious. But we are on our way.
    So thank you very much for being here. I need to say that 
as previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with the Majority staff within 14 
days.
    And without objection, this hearing is adjourned.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
